<html>
<title> - NOMINATIONS OF ANNE FERRO AND CYNTHIA L. QUARTERMAN TO THE U.S. DEPARTMENT OF TRANSPORTATION</title>
<body><pre>[Senate Hearing 111-495]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 111-495
 
                       NOMINATIONS OF ANNE FERRO
                    AND CYNTHIA L. QUARTERMAN TO THE
                   U.S. DEPARTMENT OF TRANSPORTATION

=======================================================================


                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 23, 2009

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




                  U.S. GOVERNMENT PRINTING OFFICE
54-290                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            JOHN ENSIGN, Nevada
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 GEORGE S. LeMIEUX, Florida
CLAIRE McCASKILL, Missouri           JOHNNY ISAKSON, Georgia
AMY KLOBUCHAR, Minnesota             DAVID VITTER, Louisiana
TOM UDALL, New Mexico                SAM BROWNBACK, Kansas
MARK WARNER, Virginia                MIKE JOHANNS, Nebraska
MARK BEGICH, Alaska
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                   Bruce H. Andrews, General Counsel
             Ann Begeman, Acting Republican Staff Director
              Brian M. Hendricks, Republican Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 23, 2009...............................     1
Statement of Senator Pryor.......................................     1
Statement of Senator Lautenberg..................................     2
Statement of Senator Hutchison...................................     3
    Prepared statement...........................................     4
Statement of Senator Udall.......................................    27

                               Witnesses

Anne Ferro, Administrator-Designate, Federal Motor Carrier Safety 
  Administration. U.S. Department of Transportation..............     5
    Prepared statement...........................................     6
    Biographical information.....................................     7
Cynthia L. Quarterman, Administrator-Designate, Pipeline and 
  Hazardous Materials Safety Administration, U.S. Department of 
  Transportation.................................................    15
    Prepared statement...........................................    16
    Biographical information.....................................    17
Hon. Benjamin L. Cardin, U.S. Senator from Maryland..............    33
    Prepared statement...........................................    33

                                Appendix

Hon. John Thune, U.S. Senator from South Dakota, prepared 
  statement......................................................    35
Jennifer Tierney, Board Member, Citizens for Reliable and Safe 
  Highways (CRASH) and Daphne Izer, Co-founder, Parents Against 
  Tired Truckers (P.A.T.T.) on behalf of the Truck Safety 
  Coalition, prepared statement..................................    35
Response to written questions submitted to Cynthia L. Quarterman 
  by:
    Hon. John D. Rockefeller IV..................................    38
    Hon. Tom Udall...............................................    39
    Hon. Kay Bailey Hutchison....................................    40
    Hon. John Thune..............................................    41
    Hon. Roger Wicker............................................    41
Response to written questions submitted to Anne Ferro by:
    Hon. John D. Rockefeller IV..................................    42
    Hon. John D. Rockefeller IV on Behalf of Hon. Sherrod Brown..    44
    Hon. Maria Cantwell..........................................    45
    Hon. Tom Udall...............................................    47
    Hon. Mark Warner.............................................    48
    Hon. Kay Bailey Hutchison....................................    49
    Hon. John Thune..............................................    50


                       NOMINATIONS OF ANNE FERRO


                    AND CYNTHIA L. QUARTERMAN TO THE

                   U.S. DEPARTMENT OF TRANSPORTATION

                              ----------                              


                     WEDNESDAY, SEPTEMBER 23, 2009

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:35 p.m. in room 
SR-253, Russell Senate Office Building, Hon. Mark Pryor, 
presiding.

             OPENING STATEMENT OF HON. MARK PRYOR, 
                   U.S. SENATOR FROM ARIZONA

    Senator Pryor. I'll go ahead and call this hearing to 
order, and I want to thank all of our people here in the 
audience for joining us today. We are going to have several 
Senators coming and going. Given the various activities of the 
Senate going on right now, they just couldn't be here at the 
very beginning. But, I anticipate we'll have more than a few 
come throughout the next hour or so.
    This is a hearing on the nominations of Anne Ferro to be 
the Administrator of the Federal Motor Carrier Safety 
Administration and Cynthia Quarterman to be Administrator of 
the Pipeline and Hazardous Materials Safety Administration.
    I want to welcome both of you to the Committee and tell you 
that we appreciate your interest in public service. You both 
have extensive backgrounds that appear to me, on the first 
reading at least, that you are bringing a lot to these two 
administrations, and we appreciate your willingness to do that.
    I want to welcome Ms. Ferro, who's been nominated to be the 
Administrator of the Federal Motor Carrier Safety 
Administration--FMCSA--and Ms. Quarterman, who's been nominated 
to the Pipeline and Hazardous Materials Safety Administration.
    We're here today to explore their qualifications, and to 
lead these two very important safety agencies at the Department 
of Transportation.
    You both have varied experiences in the areas of 
jurisdiction covered by the agency, and I look forward to 
discussing these more with you and with my colleagues.
    And, Ms. Ferro, the FMCSA has a broad portfolio, from 
driver qualifications to vehicle regulations to protection of 
consumers duped by unscrupulous household-good movers. Making 
sure this agency has the right laws and regulations on the 
books and the resources to enforce these laws is a very 
important key to this agency's mission, and that would be 
safety.
    There's a lot more that FMCSA can do to have an appreciable 
impact on the number of crashes, injuries, and fatalities 
caused by large trucks that continue to plague our highways. 
Clearly, the President has instilled his confidence in you to 
do just that. If you're confirmed, we look forward to working 
closely with you and help you and the FMCSA achieve its 
mission.
    Ms. Quarterman, likewise--PHMSA--has extensive jurisdiction 
over the safety and pipelines and transportation of hazardous 
materials in all modes of transportation. The safety programs 
at PHMSA, like other safety programs at the Department of 
Transportation, should always be made better and more effective 
through the use of more accurate data and new technology 
developed through continued research. We also look forward to 
working with you.
    With that, we have been joined by Senator Udall.
    Do you have an opening statement?
    Senator Udall. I do not. I would love to hear the witnesses 
as soon as possible. And maybe Senator Lautenberg, who's just 
come in--maybe he has a opening statement that he could----
    Senator Pryor. Do you have an opening statement, or would 
you rather go to the witnesses?
    Senator Lautenberg. I do.
    Senator Pryor. OK, go ahead.
    Senator Lautenberg. My time?
    Senator Pryor. Yes, your----

            STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg.--a minute to just shape up here and I'm 
ready to go.
    And I thank you, Mr. Chairman and my colleague from New 
Mexico, for their indulgence while we organize things.
    Thank you both for being here.
    The agencies that Ms. Ferro and Ms. Quarterman are 
nominated to lead fall under the jurisdiction of my 
subcommittee, and I thank Senator Pryor for hosting this 
meeting.
    And the decisions that each of you would be making would 
affect the safety of our roads, our homes, schools, and 
businesses.
    Ms. Ferro has been nominated to lead the Federal Motor 
Carrier Safety Administration--FMCSA--an agency in dire need of 
reform. And, given your ties, Ms. Ferro, to the trucking 
industry as--I think you know from our discussion--as head of 
the Maryland Motor Truck Association, I am concerned about your 
ability to take the bold action that we need to keep Americans 
safe.
    Every year for the past decade, nearly 5,000 people died 
and 125,000 were injured in crashes with a large truck. That's 
nearly 14 people a day, or 14 families torn apart by horrible, 
and often avoidable, accidents. The FMCSA needs a leader who 
will work to reduce these crashes, injuries, and fatalities. 
Drivers and passengers should not have to fear sharing the 
roads with a large truck.
    Last Congress, my subcommittee held hearings on the hours-
of-service regulations put forward by the previous 
Administration. These regulations would increase the time that 
drivers can operate trucks without rest by 40 percent, 
increasing the risk of fatigue and putting impaired drivers 
behind the wheel of trucks weighing 80,000 pounds or more. 
These behemoths that you see on the highway are frightening 
enough just by their imposing size and weight, but when you 
have run the risk of a tired driver, that makes it certainly 
something to be aware of and careful of.
    And even after being struck down twice in the Federal 
court, the previous administration went ahead and reissued 
virtually the same rules. And I hope Ms. Ferro recognizes the 
fatal flaws of the current hours-of-service rule and will 
commit to working with our Committee to create a better rule 
that puts safety first.
    And even an improved hours-of-service rule will only work 
if the truckers follow it. Electronic onboard recorders, or 
EOBRs, should be used on every large truck to make sure we have 
accurate data on the amount of time that an operator has been 
driving. Yet, the FMCSA has failed to require these recorders 
on all trucks; instead, proposing a rule that would require 
only 930 out of 700,000 carriers to use them. We need the 
current Administration to mandate EOBRs on every large truck. 
And we need Ms. Ferro's support for this mandate.
    Large trucks also carry extra wear and tear on our roads, 
tunnels, and bridges. And that's one reason we banned large 
trucks that weigh more the 80,000 pounds and are longer than 53 
feet on the interstate highway system.
    Now, I've introduced a bill to extend this ban to the 
larger national highway system, and will be looking to Ms. 
Ferro and the Administration to join me in moving this 
legislation forward.
    Ms. Quarterman has been nominated to lead the Pipeline and 
Hazardous Materials Safety Administration. This agency has the 
critical task of ensuring the safety of the transportation of 
hazardous materials, whether by air, rail, highway, or water. 
One of this agency's specific duties stems from an incident in 
my home state. In 1994, a natural gas pipeline explosion in 
Edison killed a person, injured 100, and destroyed eight 
apartment buildings. We've fought to prevent an accident like 
that from happening again by requiring excess flow values in 
single-family homes. And these values can automatically shut 
off a ruptured line, prevent injury, protect property, and save 
lives.
    In 2006, this mandate became law. Unfortunately, excess 
flow valves have still not been implemented. So, if Ms. 
Quarterman is confirmed, we need her leadership to get these 
valves into our homes, schools, and businesses.
    And I look forward to a frank discussion, Mr. Chairman, 
with these nominees, about how they'll advance the safety 
priorities, if confirmed.
    Senator Pryor. Thank you.
    Senator Hutchison?

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Thank you, Mr. Chairman.
    I will not add to what Senator Lautenberg has said so much, 
other than, the area of bus safety has been a particular 
concern of mine, and that would, of course, come under the 
Federal Motor Carrier Safety Administration. I am very 
concerned that we have not done some pretty simple things that 
Senator Brown and I have introduced legislation to require, and 
that is safety and driver qualifications of motor coaches. And 
in my home State of Texas, and in Senator Brown's home state, 
we have seen really amazing accidents that have killed people 
for just neglect, just not having the basic safety regulations, 
for instance, seatbelts, and having the requirement that there 
be a certain roof strength of a motor coach, because more 
people are killed being thrown out than when they can stay in 
their seats and have seatbelts. So, I hope that we will be able 
to move that legislation and that, when the regulation occurs, 
that the Federal Motor Carrier Safety Administration will 
promulgate sound regulations. And I will look forward to 
hearing your opinions, Ms. Ferro, on that.
    And, Ms. Quarterman, I certainly have an interest in the 
Pipeline and Hazardous Materials Safety Administration, as 
well, because trains are going through my home state and 
throughout our country with hazardous materials in them, as are 
trucks. And pipeline safety is, I think, greatly improved, but, 
nevertheless, we still have fatalities in that arena. If we're 
not careful, there could be more.
    So, these two safety agencies are very important, and I 
hope that we will be able to work through the nominations and 
also have very good safety improvements that will come through 
legislation to assure that, when people are on our highways or 
our rails, or in a pipeline vicinity, that they will be able to 
feel that they are safe.
    Thank you very much.
    [The prepared statement of Senator Hutchison follows:]

  Prepared Statement of Hon. Kay Bailey Hutchison, U.S. Senator from 
                                 Texas
    Thank you, Mr. Chairman, for holding today's hearing. The nominees 
we consider today will fill key positions at two of the Department of 
Transportation's chief safety agencies.
    Anne Ferro, who has been nominated to serve as the Administrator of 
the Federal Motor Carrier Safety Administration, will, if confirmed, 
take the helm of an agency with broad responsibility over truck and 
intercity bus safety. Truck safety has improved significantly since 
FMCSA was established in 2000. The number of fatalities involving large 
trucks has declined 14 percent and the rate of fatal accidents has 
declined 16 percent. But there is still important work to be done in 
ensuring unsafe trucks, unsafe truck drivers, and unsafe trucking 
companies are not allowed to operate on the Nation's highways.
    I am especially concerned that not enough has been done to address 
the safety of intercity bus transportation. Several bus accidents in 
Texas have claimed multiple lives, and it is time for Congress to act. 
Senator Brown and I have introduced the S. 544, the Motorcoach Enhanced 
Safety Act of 2009, which is designed to significantly strengthen 
motorcoach equipment safety and driver qualifications. Our Committee 
has a proud record in promoting the safety of the traveling public, and 
I believe our bus safety bill would be another very important highway 
safety accomplishment that will help save lives and urge the Chairman 
to make this issue a priority for the Committee's action.
    Today, we also consider the nomination of Cynthia Quarterman to 
serve as Administrator of the Pipeline and Hazardous Materials Safety 
Administration, or PHMSA. PHMSA has the important mission of overseeing 
the safety of over 1 million daily shipments of hazardous materials and 
2.3 million miles of pipelines. While progress has been made in 
improving pipeline and hazmat safety, the number of hazmat incidents 
and the number of fatalities were both higher in 2007 than in 2000. I 
hope that if confirmed, Ms. Quarterman will be able to ``move the 
numbers'' in the right direction.
    I look forward to working with both of our nominees as the 
Committee begins work on reauthorizing FMCSA and the Hazardous 
Materials Transportation Act as part of the highway bill. I commend 
both of them for their willingness to serve in these very important 
safety agencies, and look forward to their testimony.

    Senator Pryor. Thank you, Senator Hutchison.
    What I'd like to do now is have our two witnesses to give 
their opening statements, and, if possible, if you could keep 
it to 5 minutes each, that would be great.
    Ms. Ferro?

STATEMENT OF ANNE FERRO, ADMINISTRATOR-DESIGNATE, FEDERAL MOTOR 
       CARRIER SAFETY ADMINISTRATION, U.S. DEPARTMENT OF 
                         TRANSPORTATION

    Ms. Ferro. Again, thank you, Mr. Chairman, Ranking Member 
Hutchison, and Members of the Committee.
    I greatly appreciate the chance to appear before you today, 
and am honored that the President would nominate me to the 
position of Federal Motor Carrier Safety Administrator, and 
grateful for Secretary LaHood's support.
    If I might, I would like to express deep thanks to my 
friends and family who are here. And, if I may, Mr. Chairman, 
introduce my family; in particular, my wonderful husband and 
children, Dan, Finley, and Packy Ferro, who are right behind 
me; my sister, Didi Schanche, and my brother-in-law, Todd 
Shields, and, in absentia, my brother, Don, Jr., and my late 
parents, Marybelle and Don Schanche.
    In appearing before you, I hope to share my goals to 
achieve significant gains in commercial vehicle safety and to 
answer any questions you may have.
    Beginning with the Peace Corps 30 years ago, I've spent 
most of my career in government service, with 23 years in State 
government. Six of those years were in the legislative branch; 
11, the executive branch; and the last 7 of those, as 
Maryland's Motor Vehicle Administrator. For the past 6 years, 
I've served as the President of the Maryland Motor Truck 
Association, where I've learned a great deal about the 
commercial vehicle industry. My professional success along the 
way has rested in the guiding principles of fairness, 
integrity, teamwork, respect for others, and hard work.
    The Federal Motor Carrier Safety Administration's mandate 
is to reduce the incidence and severity of crashes involving 
trucks and buses. This has proven to be a daunting challenge in 
a multisector industry where segments have such low barriers to 
entry that competition for business is sometimes characterized 
as ``a race to the bottom.'' But, it's a challenge we can and 
must overcome, and strategies to do so have been recommended by 
a wide range of groups, including the agencies on personnel, 
the National Transportation Safety Board, the Office of the 
Inspector General, the Government Accountability Office, safety 
and labor groups, law enforcement, and the very drivers, owner-
operators, and motor-carrier companies among them.
    Measures that work have been demonstrated, and the strong 
safety records of drivers and carriers who use them give 
witness to their effectiveness. Yet, every other hour, someone 
in our country is killed in a crash with a truck or a bus, and 
hundreds are injured. If it happens to someone close to you, 
it's intolerable, and we shouldn't wait for that possibility.
    Whoever leads this agency must foster frank discussions 
about the fundamentals in the freight supply chain and 
motorcoach industries that encourage participants to push the 
limits and put the driving public and other commercial drivers 
at risk.
    Uncompensated time, compensation by the mile or load, 
professional drivers classified as laborers; these are all 
aspects of a supply chain model that rewards squeezing 
transportation costs out of the equation. They are factors that 
shift the cost onto the driving public and the professional 
driver. The Administrator must take the lead in raising these 
questions and opening up the discussion if we're to realize an 
industry where the safest drivers and the safest motor carriers 
are, in fact, the most competitive; not the other way around.
    Furthermore, the agency must get on with considering a 
universal electronic onboard recorder rule, improving the 
hours-of-service rule, rolling out tougher standards for entry, 
implementing effective identification of, and sanctioning of, 
high-risk carriers.
    Mr. Chairman and members of the Committee, should I be 
confirmed, I am committed to working with you and your staff on 
these very difficult and vitally important challenges.
    Again, I'm grateful for your consideration today, and look 
forward to answering any questions you may have.
    Thank you.
    [The prepared statement and biographical information of Ms. 
Ferro follows:]

  Prepared Statement of Anne Ferro, Administrator-Designate, Federal 
 Motor Carrier Safety Administration. U.S. Department of Transportation
    Thank you Chairman Rockefeller, Ranking Member Hutchison and 
members of the Committee for the chance to appear before you today. I 
am honored that the President has nominated me to the position of 
Federal Motor Carrier Safety Administrator and am grateful to Secretary 
LaHood for his support. Deep thanks to the friends and family who have 
joined me, in particular my wonderful husband and children--Dan, Finley 
and Packy Ferro--my sister and brother in law, Didi Schanche and Todd 
Shields, and in absentia my brother Don Jr. and my late parents Don and 
Marybelle Schanche.
    In appearing before you, I hope to share my goals to achieve 
significant gains in commercial vehicle safety and to answer any 
questions you may have.
    Beginning with the Peace Corps 30 years ago, I have spent most of 
my career in state and local government. Six of those years were in the 
legislative branch and 11 the executive branch, with the last 7 as 
Maryland's Motor Vehicle Administrator. As Administrator, I led the MVA 
to significant gains in customer service and safety including a strong 
graduated licensing program for new drivers.
    For the past 6 years, I have served as President of the Maryland 
Motor Truck Association where I've learned a great deal about the 
commercial vehicle industry. My professional success along the way has 
rested on the guiding principles of fairness, integrity, teamwork, 
respect for others and hard work. I am a public servant at heart with a 
passion for highway safety and a commitment to good government.
    The Federal Motor Carrier Safety Administration's mandate is to 
reduce the incidence and severity of crashes involving trucks and 
buses. This has proven to be a daunting challenge in a multi-sector 
industry where segments of it have such low barriers to entry that 
competition for business is sometimes characterized as a race to the 
bottom. But it's a challenge we can and must overcome, and strategies 
to do so have been recommended by a wide range of stakeholders 
including agency personnel, the National Transportation Safety Board, 
the agency's own Inspector General, survivors advocacy groups, law 
enforcement agencies, the best drivers, owner operators, and motor 
carrier companies. Measures that work have been demonstrated and the 
strong safety records of the drivers and carriers who use them give 
witness to their effectiveness.
    Yet, every other hour someone in our country is killed in a crash 
with a truck or motorcoach and hundreds are injured. If it happens to 
someone close to you it's intolerable--we shouldn't have to wait for 
that possibility. Whoever leads this agency must foster frank 
discussions about the fundamentals in the freight supply chain and 
motorcoach industries that encourage participants to push the limits 
and put the driving public and other commercial drivers at risk. 
Uncompensated time, compensation by the mile or load, professional 
drivers classified as laborers--these are all aspects of a supply-chain 
model that rewards squeezing transportation costs out of the equation; 
factors that shift the cost onto the driving public and professional 
driver.
    The Administrator must take the lead in raising questions and 
opening up the discussion if we are to realize a commercial vehicle 
industry where the safest drivers and safest motor carriers are the 
most competitive, not the other way around. Furthermore, the agency 
must get on with considering a universal electronic on board recorder 
rule, improving the Hours of Service rule, rolling out tougher 
standards for entry, implementing effective identification and 
sanctioning high risk carriers.
    Mr. Chairman and Members of the Committee, should I be confirmed, I 
am committed to working with you and your staff on these difficult and 
vitally important challenges. Thank you for your consideration. I'll be 
pleased to answer any questions you may have.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used):

        Anne Schanche Ferro (1990 to present).

        Anne Waddington Ferro (1989-1990).

        Anne Waddington Schanche (1957-1989).

    2. Position to which nominated: Federal Motor Carrier Safety 
Administrator, Department of Transportation.
    3. Date of Nomination: July 16, 2009.
    4. Address (List current place of residence and office addresses):

        Residence:Information not released to the public.

        Office: 3000 Washington Blvd., Baltimore, MD 21230.

    5. Date and Place of Birth: September 24, 1957; District of 
Columbia.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Husband: Daniel James Ferro, Sales and Assistant Manager, May 
        2008-March 2009, Boaters World, Annapolis and Glen Burnie, MD; 
        Before and after the above dates, stay-at-home parent; 
        children: Finley Anne Ferro, 18 years old; Patrick James Ferro, 
        17 years old.

    7. List all college and graduate degrees. Provide year and school 
attended.

        Masters Degree, School of Public Policy, University of 
        Maryland, College Park, MD, 1982-1984.
        Bachelors Degree, St. John's College, Annapolis, MD, 1977-1980.

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        President and CEO, Maryland Motor Truck Association , 12/03 to 
        present.

        Administrator, Maryland Motor Vehicle Administration, 2/97-11/
        03.

        Associate Administrator, Maryland Motor Vehicle Administration, 
        11/92-1/97.

        Committee Staff/Fiscal Analyst, Maryland General Assembly, 11/
        86-10/92.

        Economic Development Coordinator, Tri-County Council for So. 
        MD, 5/85-11/86.

        Marketing Associate, Nautical & Aviation Publishing Co., MD, 
        1984-1985.

        College Recruiter, Research Assistant, University of Maryland, 
        1982-1984 (while in graduate school).

        Waitress, Maryland Inn, MD 1981.

        Peace Corps, Cote D'Ivoire, West Africa, 1980-1981.

    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years.
    Committee member on the following government-created entities, un-
compensated:

        2009 Attainment Report Advisory Committee, Maryland Dept. of 
        Transportation (2008-2009).

        Commercial Drivers License Advisory Committee, established 
        under section 4135 of the Safe, Accountable, Flexible, 
        Efficient Transportation Equity Act: A Legacy for Users 
        (SAFETEA-LU) (2007-2008).

        Quality Cargo Handling Action Team--Containers, Maryland Port 
        Administration (2005 to present).

        Maryland Highway Centennial Executive Committee (2007-2008).

        Howard County U.S. 1 Corridor Improvement Strategy Advisory 
        Committee (2007-2008).

        Baltimore Regional Transportation Board Freight Movement Task 
        Force (2004 to present).

        Maryland Strategic Highway Safety Plan Executive Committee 
        (2005-2007).

        Maryland Department of Transportation Commercial Vehicle 
        Information Systems Network (CVISN) Executive Steering 
        Committee (2005-2009).

        On behalf of Maryland Motor Truck Association, served as a paid 
        (to the MMTA) subcontractor on a Port Truck Emissions Reduction 
        project managed by the Maryland Environmental Service on behalf 
        of the Maryland Port Administration (2008 to present).

    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years.

        Port of Baltimore Tricentennial Committee--Secretary/Treasurer 
        (2005-2009).

        Annapolis High School PTSA--Treasurer (2007 to present).

        Maryland Highway Safety Foundation, Executive Committee (2008 
        to present).

        Greater Baltimore Committee Transportation Funding Task Force--
        Co-Chair (2008-2009).

        HELP, Inc.--Board member (2007-2009).

        Touchstones Discussion Project--Board member (2004-2005).

        Science Applications International Corporation (SAIC)--
        Consultant (2006-2007).

        On behalf of Maryland Motor Truck Association, served as a paid 
        (to the MMTA) subcontractor on a Port Truck Emissions Reduction 
        project managed by the Maryland Environmental Service on behalf 
        of the Maryland Port Administration (2008 to present).

    12. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        Leadership Maryland (2001 to present)--Does not restrict 
        membership.

        American Association of Motor Vehicle Administrators (1995-
        2003). Positions held: Officer, Treasurer, AAMVANet Chair--Does 
        not restrict membership.

        Council of Minority Transportation Officials (2003 to present). 
        Position held: Officer--Does not restrict membership.

        Annapolis High School PTSA (2003 to present). Position held: 
        Treasurer--Does not restrict membership.

        Trucking Association Executive Council (2006 to present). 
        Position held: Region 1 Vice Chair--Does not restrict 
        membership.

        Women's Traffic Club of Baltimore (2007 to present)--Does not 
        restrict membership.

        Annapolis Ice Hockey Club (2006-2008)--Does not restrict 
        membership.

        Annapolis Athletic Club (2008)--Does not restrict membership.

        Boy Scout Troop 771 Annapolis (2003-2008). Position held: Adult 
        membership chair--Local troop did not restrict membership but 
        Boy Scouts of America restricts based on gender.

    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt.
    No campaigns or debt. I was appointed Administrator of the Maryland 
Motor Vehicle Administration and served from 1997 to 2003.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period.

    American Trucking Association, PAC

        2004--$500

        2005--$750

        2006--$250

        2007--$250

        2008--$250

    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements: None.
    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.

        Letter to Editor of Baltimore Sun on Hours of Service rule 1/
        10/09; New Rules Improve Truck Safety.''

        6/2008--In my capacity as Maryland Motor Truck Association 
        President, on behalf of the Maryland Movers Conference, I 
        appeared in a consumer information video warning against rogue 
        moving companies.

    In my capacity as Maryland Motor Vehicle Administrator from 
February 1997 to November 2003, I regularly spoke to groups that 
included the American Association of Motor Vehicle Administrators 
(topic--drivers license integrity), highway safety organizations (high 
risk driver intervention strategies), state government meetings 
(performance measurement), to name a few. My public speaking duties 
continued but significantly less so in my first few years as Maryland 
Motor Truck Association President other than an occasional presentation 
to a community group or MMTA conference. In the last few years I have 
spoken periodically to highway safety. industry, and community 
organizations including those listed below on topics ranging from 
highway funding, highway safety, women in leadership, and the motor 
carrier industry:

    2009:

        1/15--Maryland Transportation Authority, Impact of proposed 
        toll hike on Maryland business.

        2/27--Women in Transportation Seminar/MD Chapter, Importance of 
        freight planning.

    2008:

        3/27--Women in Maritime History, Keynote: Transportation 
        Infrastructure.

        6/18--TRB Summer Ports, Waterways, Freight, and International 
        Trade Conference--panel presenter: ``Integrating Different 
        Freight Interests by Scale.''

        11/6--Maryland Chamber of Commerce, Transportation Funding.

        11/13--MMTA Western MD Chapter Meeting, Climate Change-
        Strategies for the Industry.

        11/20--Rotary of Salisbury, MD. MMTA and Truck Impact/Safety.

    2007:

        9/18--National Environmental Justice Advisory Council--
        ``Maryland Goods Movement Experience.''

    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.

        April 4, 2000--Committee on Appropriations: Subcommittee on 
        Transportation.

        Topic: Driver's Privacy Protection Act of 1994: Hearing 
        focusing on the positive notification requirement provisions of 
        the Act. I was serving in the position of Maryland Motor 
        Vehicle Administrator at the time.

    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    To effectively lead the agency that regulates the Nation's 
commercial vehicle industry and exerts direct and indirect controls 
over its safe operation, one needs a passion for safety, the strength 
to lead on tough issues, the ability to listen, and the experience to 
manage a large organization and deploy complex programs to a diverse 
population. I would bring these qualities and a life-long commitment to 
good government to this position, if confirmed.
    For the past decade I have demonstrated my commitment to highway 
safety through a series of program accomplishments while serving as 
Maryland's Motor Vehicle Administrator. In that capacity I led our team 
to focus on high risk drivers--by age, action and health--leading us to 
achieve one of the strongest graduated licensing laws at the time, a 
ground-breaking approach to older driver assessment and licensing, and 
an emphasis on restricting high-risk drunk drivers through ignition 
interlocks and treatment. These changes were developed, measured and 
implemented with valid program research by experienced professionals 
who shared my vision.
    My dedication to highway safety took a new turn when I left 
government to take the wheel of the Maryland Motor Truck Association. 
Safety is fundamental to the industry's bottom line for an array of 
reasons. With this mantra and a team of experienced safety 
professionals and volunteers, MMTA implements compliance audits, safety 
events, and education programs to improve, reward and recognize safe 
motor carrier operations and safe drivers. To underscore the 
Association's safety mission and improve the trucking industry's 
safety, I serve on a number of state and Federal highway safety 
committees. This collaboration with local, state and Federal Government 
officials has ensured that the private trucking sector is responding to 
government concerns.
    From the time I volunteered to serve in Cote D'Ivoire in the Peace 
Corps, providing a positive influence through government action has 
been a passion of mine. This was exemplified in the service delivery 
improvements we achieved when I led the MVA and the ongoing dialogue I 
maintain between the private trucking sector and government as 
Association president. Underlying the knowledge, expertise, and 
experience that will I bring to the position of Federal Motor Carrier 
Safety Administrator, if confirmed, is a life-long belief in good 
government and its ability to protect and improve the lives of the 
people it serves through incentives, enforcement, education and action.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    The FMCSA must hold itself accountable to the taxpayers to achieve 
measurable results, efficiency, and effective outcomes by instituting 
strategic planning, performance measurement, and sound budgeting 
processes. It is the responsibility of the FMCSA Administrator to 
institute these operating principles and performance measures to 
achieve the agency's mission and do so with continuous improvement in 
mind.
    I practiced these dictums during my tenure as Maryland's Motor 
Vehicle Administrator. I oversaw an agency with 1,700 employees, a 
budget of $130 million and annual revenue of $1 billion. Responsible 
for licensing the state's 4 million drivers and 5 million vehicles, we 
conducted millions of over-the-counter customer transactions each year, 
regulated industries pertaining to vehicles and drivers, and ran the 
second largest 24/7 data center in the state. We were recognized for 
our efforts through awards, continuously improved audits and customer 
surveys, elevated employee morale and demonstrated improvements in 
driver safety.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?
    To further reduce fatalities and crashes involving trucks and buses 
as well as improve consumer protection in household goods moves, the 
FMCSA must:

        Overcome distrust of the agency held by stakeholders. Effective 
        government regulation, while at times it may be motivated by a 
        few good lawsuits, cannot be sustained in the courtroom.

        Refocus the agency's attention and talent to implementing 
        timely, effective rulemakings on key safety improvements 
        including: Electronic On-Board Recorders; Entry Level Driver 
        Training, a centralized database on drug testing/DOT physicals 
        and safety improvements pertaining to commercial vehicle 
        industry operations.

        Have good working relationships with the authorizing and 
        appropriations committees in Congress; work effectively with 
        the states on grant and program development; and above all 
        serve the President and Secretary of Transportation in 
        accordance with their expectations.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    I have a Maryland Motor Truck Association 401(k) retirement account 
that is managed by Great West Retirement Services.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain: No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Transportation's 
ethics official to identify potential conflicts of interest. Any 
potential conflicts of interest will be resolved in accordance with the 
terms of an ethics agreement that I have entered into with the 
Department's designated agency ethics official and that has been 
provided to this Committee. I am not aware of any other potential 
conflicts of interest.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Transportation's 
ethics official to identify potential conflicts of interest. Any 
potential conflicts of interest will he resolved in accordance with the 
terms of an ethics agreement that I have entered into with the 
Department's designated agency ethics official and that has been 
provided to this Committee. I am not aware of any other potential 
conflicts of interest.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    Throughout my career in the public and private sectors I have 
sought opportunities to positively influence the development, 
administration and execution of effective public policy and private 
action. After becoming Maryland's Motor Vehicle Administrator in 1997, 
I lead the Administration's graduated drivers licensing initiative and 
influenced legislative proposals to toughen penalties on aggressive 
drivers, require ignition interlocks for repeat drunk drivers, and 
adopt Federal requirements under the Motor Carrier Safety Improvement 
Act of 1999, to name a few. Beginning in 2004, as the president of the 
Maryland Motor Truck Association and its registered state lobbyist, I 
influenced a proposal to clarify that certain owner operators were 
``independent contractors'' for purposes of unemployment insurance, 
advanced a change in state law to establish even-handed indemnification 
in transportation services contracts between shippers and motor 
carriers, and lobbied for approval of a state transportation trust fund 
revenue increase.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Transportation's 
ethics official to identify potential conflicts of interest. Any 
potential conflicts of interest will be resolved in accordance with the 
terms of an ethics agreement that I have entered into with the 
Department's designated agency ethics official and that has been 
provided to this Committee.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain.
    I was fined $250 in early 2008 by the Maryland State Ethics 
Commission for filing the annual lobbyist registration one month late. 
I paid the fine and the matter was resolved.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain: No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain.
    As Administrator of the Maryland Motor Vehicle Administration from 
1997 to 2003, I was named as a party in my official capacity in 
numerous cases. Please see the attached list of cases.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain: No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                        resume of anne s. ferro
Employment History
    President and CEO, 12/03 to present, Maryland Motor Truck 
Association, Baltimore, MD.

        Serve as Chief Executive Officer of the trucking industry's 
        trade association in Maryland, serving 1,000 member companies; 
        manage association's finances, revenue development, operations, 
        member services and outreach, conference/event planning.

        Collaborate with government, non-profit, and community groups 
        to improve industry safety and efficiency, and advance 
        environmental and freight planning goals.

        Achieved high member retention, strong membership and revenue 
        growth, improved event participation, expanded member services, 
        and legislative successes important to the economic vitality 
        and safety of the trucking industry.

    Administrator, 12/97-11/03, Motor Vehicle Administration, Glen 
Burnie, MD.

        Served as CEO of the Maryland agency responsible for driver and 
        vehicle services through a statewide network of 25 offices, 
        1700 employees, and budget of $125 million.

        Achieved state and national prominence by implementing a 5-year 
        business plan to improve customer satisfaction, upgrade the 
        work force, produce more secure drivers license, and deliver 
        MVA services via online and telephonic media by 2004.

        Implemented graduated licensing for new drivers, ground-
        breaking research to advance the safety and mobility of older 
        drivers, and ignition interlock programs for drunk drivers.

        Reduced average wait times from 70 minutes to 32 minutes and 
        increased customer satisfaction to 91 percent during leadership 
        tenure.

    Associate Administrator, 11/92-1/97, Motor Vehicle Administration, 
Glen Burnie, MD.

        Directed three divisions of the MVA with 400 employees and $29 
        million operating budget, improving productivity within 
        available resources.

        Implemented electronic solutions to MVA vehicle services, 
        including CVISN and registration renewal by Internet and kiosk.

        Coordinated MVA's legislative agenda as liaison and bill 
        drafter.

    Legislative Committee Staff/Fiscal Analyst, 11/86-10/92, Maryland 
General Assembly, Annapolis, MD.

        Provided fiscal counsel and analysis as staff to the House Ways 
        and Means Committee during five consecutive General Assembly 
        Sessions.

        Conducted special studies on transportation taxes, state/local 
        fiscal relations, education funding, inheritance taxes, and 
        public safety.
                      Other Background Information
Education

    BA, 1977-1980, St. John's College, Annapolis, MD.

    MPM, 1982-1984, School of Public Affairs, UMD, College Park, MD.

    Certificate, 1996, MD Gov't Executive Institute, Wye Island, MD.

    Certificate, 2001, Leadership Maryland, Statewide.
Other Work Experience
    United States, Sri Lanka, Egypt, Cote d'Ivoire.

    Economic Development Coord., 1985-1986, Tri-County Council for 
Southern Maryland.

    Marketing Associate, 1984-1985. Nautical & Aviation Publishing Co, 
Maryland.

    Peace Corps, English Teacher, 1980-1981, Cote D'Ivoire, West 
Africa.

    College recruiter, Fulbright participant in Sri Lanka, Arabic 
student in Egypt, mountaineer and cook/horse-packer (WY), waitress, 
sailing instructor (MD), stable-hand. (NY)
Boards and Committees: (executive committee or officer)

    2008-2009, Transportation Funding Task Force, Greater Baltimore 
Committee.

    2008 to present, Maryland Highway Safety Foundation Executive 
Committee.

    2007 to present, Annapolis High School Parent Teacher Student 
Association, Treasurer.

    2007-2009, HELP, Inc., Officer of board governing electronic truck 
bypass system.

    2006 to present, Trucking Association Executive Council--Region 1 
Vice Chair.

    2005-2009, Port of Baltimore Tri-centennial Committee, Treasurer.

    2004-2005, Touchstones Discussion Project, Officer.

    1995-2003, American Association of Motor Vehicle Administrators: 
International Treasurer, AAMVA; International Officer of the AAMVA 
Board; AAMVAnet Chairman.
                                 ______
                                 

                 Anne Ferro--Attachment to Question C.3
------------------------------------------------------------------------
 Case Number/
     Cite              Court        Filing Date        Case Caption
------------------------------------------------------------------------
348 Md. 593     Maryland Court of     2/10/1998  Anne S. Ferro v.
                 Appeals                          William Michael Lewis
20C98003465     Talbot County         6/12/1998  Hardisty vs. Motor
                 Circuit Court                    Vehicle
                                                  Administration, et al.
80400160011998  Towson District       6/30/1998  (Parker, David) vs.
 .00             Court                            (Ferro, Anne S.)
03C98011389     Baltimore County     11/16/1998  Baltimore County
                 Circuit Court                    Employees FCU vs.
                                                  Ferro, et al.
02C98051436     Anne Arundel         12/15/1998  Lambertine Jones, Jr.
                 County Circuit                   vs. Anne S. Ferro, et
                 Court                            al.
20C99003657     Talbot County         2/25/1999  McLendon vs. Motor
                 Circuit Court                    Vehicle Administration
02C99055508     Anne Arundel          6/11/1999  Lloyd Ernest Hadel vs.
                 County Circuit                   Motor Vehicle
                 Court                            Administration, et al.
02C99055516     Anne Arundel          6/11/1999  Jamie Wilson Marshall
                 County Circuit                   vs. Motor Vehicle
                 Court                            Administration, et al.
02C99055522     Anne Arundel          6/11/1999  Donielle Marie Kight
                 County Circuit                   Moheng, et al., vs.
                 Court                            Motor Vehicle
                                                  Administration, et al.
02C99055525     Anne Arundel          6/11/1999  Eva Hilda Hebron vs.
                 County Circuit                   Motor Vehicle
                 Court                            Administration, et al.
02C99055528     Anne Arundel          6/11/1999  Steve Lee Miles, Sr.
                 County Circuit                   vs. Motor Vehicle
                 Court                            Administration, et al.
02C99055530     Anne Arundel          6/11/1999  Richard Joseph Coleman
                 County Circuit                   vs. Motor Vehicle
                 Court                            Administration, et al.
02C99055533     Anne Arundel          6/11/1999  Lauretia Eve Edwards
                 County Circuit                   vs. Motor Vehicle
                 Court                            Administration, et al.
02C99055537     Anne Arundel          6/11/1999  Charles Stephen Dewey
                 County Circuit                   vs. Motor Vehicle
                 Court                            Administration, et al.
02C99055538     Anne Arundel          6/11/1999  Charles Arnold
                 County Circuit                   Deshields vs. Motor
                 Court                            Vehicle
                                                  Administration, et al.
02C99055547     Anne Arundel          6/11/1999  Colin Howard Carey vs.
                 County Circuit                   Motor Vehicle
                 Court                            Administration, et al.
02C99055548     Anne Arundel          6/11/1999  Jung Wook Kim vs. Motor
                 County Circuit                   Vehicle
                 Court                            Administration, et al.
02C99055551     Anne Arundel          6/11/1999  Shawn Averic Rowley, et
                 County Circuit                   al. vs. Motor Vehicle
                 Court                            Administration, et al.
02C99055553     Anne Arundel          6/11/1999  Leonard William King,
                 County Circuit                   et al. vs. Motor
                 Court                            Vehicle
                                                  Administration, et al.
02C99055554     Anne Arundel          6/11/1999  Matthew Morkus Shallal
                 County Circuit                   vs. Motor Vehicle
                 Court                            Administration, et al.
02C99055587     Anne Arundel          6/11/1999  Daniel Stewart Magill
                 County Circuit                   vs. Motor Vehicle
                 Court                            Administration, et al.
02C99055588     Anne Arundel          6/11/1999  Robert Gregory Peck vs.
                 County Circuit                   Motor Vehicle
                 Court                            Administration, et al.
02C99055591     Anne Arundel          6/11/1999  Susan Denise Stoutamyer
                 County Circuit                   vs. Motor Vehicle
                 Court                            Administration. et al.
02C99055594     Anne Arundel          6/11/1999  Charles James Wood vs.
                 County Circuit                   Motor Vehicle
                 Court                            Administration, et al.
02C99055595     Anne Arundel          6/11/1999  Steven Harvey Shores
                 County Circuit                   vs. Motor Vehicle
                 Court                            Administration, et al.
02C99055596     Anne Arundel          6/11/1999  Louis Craig Castagnola,
                 County Circuit                   Jr. vs. Motor Vehicle
                 Court                            Administration. et al.
02C99055597     Anne Arundel          6/11/1999  Andrea Dawn Tenley vs.
                 County Circuit                   Motor Vehicle
                 Court                            Administration, et al.
02C99055598     Anne Arundel          6/11/1999  Darlene Louise Scaggs
                 County Circuit                   vs. Motor Vehicle
                 Court                            Administration, et al.
02C99055599     Anne Arundel          6/11/1999  Suzanne Louise Belser
                 County Circuit                   vs. Motor Vehicle
                 Court                            Administration, et al.
02C99055600     Anne Arundel          6/11/1999  Curtis Moran Fenner,
                 County Circuit                   Jr. vs. Motor Vehicle
                 Court                            Administration, et al.
02C99055602     Anne Arundel          6/11/1999  Daniel Neal Durity vs.
                 County Circuit                   Motor Vehicle
                 Court                            Administration, et al.
02C99055603     Anne Arundel          6/11/1999  Genevieve Laxada Friend
                 County Circuit                   vs. Motor Vehicle
                 Court                            Administration, et al.
02C99055592     Anne Arundel          6/15/1999  Gary David Zittle vs.
                 County Circuit                   Motor Vehicle
                 Court                            Administration. et al.
02C99056331     Anne Arundel          7/15/1999  Jeffrey Richard Jamison
                 County Circuit                   vs. Motor Vehicle
                 Court                            Administration, et al.
02C99056463     Anne Arundel          7/20/1999  Brian Michael Vuicich
                 County Circuit                   vs. Motor Vehicle
                 Court                            Administration, et al.
CAL9928631      Prince George's       12/3/1999  Seman vs. Ferro
                 County Circuit
                 Court
02C00062893     Anne Arundel          4/27/2000  Rory Philip Callahan
                 County Circuit                   vs. Anne S. Ferro
                 Court
14C00004723     Kent County            8/3/2000  Rodney Francis Naundorf
                 Circuit Court                    vs. Motor Vehicle
                                                  Administration
03C00009066     Baltimore County       9/1/2000  In The Matter of: Motor
                 Circuit Court                    Vehicle
                                                  Administration, et al.
12C00003231     Harford County        12/1/2000  Robert C. Stolzenbach
                 Circuit Court                    vs. Anne S. Ferro
CAE0100370      Prince George's        1/5/2001  Capital Auto vs. Ferro
                 County Circuit
                 Court
14C01004855     Kent County           1/26/2001  Karl Lloyd Allspach vs.
                 Circuit Court                    State of Maryland
                                                  Office of
                                                  Administrative
                                                  Hearings
02C01073348     Anne Arundel          7/30/2001  Stacy Zook vs. Elpidio
                 County Circuit                   Martinez
                 Court
20C01004332     Talbot County         8/14/2001  Kenneth W Petrella Jr.
                 Circuit Court                    vs. Erin H. Leff
03C01009619     Baltimore County      9/17/2001  Hollinshead vs. Ferro
                 Circuit Court
20C02004437     Talbot County          1/8/2002  Kathleen Nolan vs.
                 Circuit Court                    Motor Vehicle
                                                  Administration
13C02051152     Howard County         2/27/2002  Motor Vehicle
                 Circuit Court                    Administration, et al.
                                                  vs. Crocker
01C02020623     Allegany County       4/18/2002  Martz vs. Coleman, et
                 Circuit Court                    al.
23C02000828     Worcester County      7/16/2002  Constance Jean Keen vs.
                 Circuit Court                    State of Maryland
                                                  Motor Vehicle
                                                  Administration
56Fed.          Fourth Circuit        2/20/2003  Roby v. Roby
 Appx.172        Court of Appeals
03C03002958     Baltimore County      3/19/2003  Friedman vs. Craig
                 Circuit Court
24C03002220     Baltimore City         4/3/2003  Victor L.D. White vs.
                 Circuit Court                    Anne Ferro, et al.,
                                                  HTTP/1.1 200 OK
02C03088781     Anne Arundel          4/21/2003  Motor Vehicle
                 County Circuit                   Administration vs.
                 Court                            Patrick Brinson
06C03038661     Carroll County        5/20/2003  In The Matter of: Jason
                 Circuit Court                    R. McCracken
18C03000764     Saint Mary's          6/27/2003  Dayton, et al. vs.
                 County Circuit                   Ferro, et al.
                 Court
13C03055682     Howard County          7/1/2003  Mazur vs. State of
                 Circuit Court                    Maryland Motor Vehicle
                                                  Administration, et al.
02C03091468     Anne Arundel          8/15/2003  Sandra Noyes vs. State
                 County Circuit                   of MD Motor Vehicle
                 Court                            Administration, et al.
13C03056848     Howard County         11/3/2003  Western Surety Company
                 Circuit Court                    vs. Ferro, et al.
------------------------------------------------------------------------


    Senator Pryor. Thank you.
    Ms. Quarterman?

              STATEMENT OF CYNTHIA L. QUARTERMAN,

             ADMINISTRATOR-DESIGNATE, PIPELINE AND

           HAZARDOUS MATERIALS SAFETY ADMINISTRATION,

               U.S. DEPARTMENT OF TRANSPORTATION

    Ms. Quarterman. Chairman Pryor, Ranking Member Hutchison, 
and other distinguished members of the Committee, it's a 
privilege to appear before you this afternoon.
    I welcome the opportunity to testify today with this other 
distinguished nominee as you consider my nomination to serve as 
the Administrator of the Pipeline and Hazardous Materials 
Safety Administration of the United States Department of 
Transportation. I'm honored to have been nominated by President 
Obama for this important position, and, if confirmed, I look 
forward to joining Secretary LaHood and his strong leadership 
team at the Department. My plan is to dedicate myself fully, 
working closely with you, to ensuring that PHMSA meets its 
vital safety mission.
    At your indulgence, I'd like to take a moment to publicly 
thank my husband, Pantelis Michalopoulos, who is here with me 
today, and our 3-year-old daughter Charis, for their unwavering 
support of my decision to return to public service, as well as 
a host of family and friends, here and elsewhere.
    As the Committee is well aware, PHMSA is in its infancy, 
having been established only 3 years ago to ensure the safe and 
environmentally sound transportation of hazardous materials 
throughout our country.
    I believe that my more than 20 years of experience in 
private practice and government service in the transportation 
of hazardous materials by pipeline provides me with the 
necessary substantive knowledge to lead this agency forward.
    In addition, I believe that my government service at the 
Department of the Interior and my private practice at Steptoe & 
Johnson have provided me with substantial management and 
leadership experience that will help me to succeed in the 
position for which I have been nominated.
    My work experiences have given me an excellent perspective 
on how organizations and their personnel work, how to ensure 
focus on mission objectives and achieve the performance results 
that the Administration, the Congress, and the public expect 
and deserve.
    As director of the Minerals Management Service, I had the 
overall management responsibility for an organization of more 
that 1200 employees, with a budget of more than $200 million 
and a revenue collections in the billions. One of its primary 
roles was oversight of mineral, oil, and gas exploration, 
production, and development on the Nation's outer continental 
shelf, which involved the use, exploitation, and transportation 
of hazardous materials, including by pipeline. I oversaw a team 
of inspectors, engineers, and scientists who helped to ensure 
that the agency's safety and environmental protection missions 
were fulfilled, despite operating in a period of great 
expansion into the deepest offshore areas. It was fulfilled 
without any serious incident. We worked hand in hand with other 
entities, including the Coast Guard, the Research and Special 
Programs Administration (PHMSA's predecessor agency), the 
National Oceanic and Atmospheric Administration, the 
Environmental Protection Agency, the States, the environmental 
community, industry, and many others.
    Owing to its offshore development mandate, Mineral 
Management Service's programs were often controversial. I 
nonetheless was able to move the agency from conflict toward 
consensus. One indication of that success was the MMS's receipt 
of the Hammer Award for Innovation in Government during my 
tenure there.
    If confirmed, I will do everything in my power to improve 
the operations of PHMSA, so that we, as a Nation, can provide 
the highest caliber of safety for the transportation of 
hazardous materials to protect our communities and the public 
at large.
    Mr. Chairman and other distinguished members of the 
Committee, if confirmed, I commit to you that I will work with 
you diligently to fulfill the responsibilities entrusted to me.
    Thank you.
    [The prepared statement and biographical information of Ms. 
Quarterman follows:]

 Prepared Statement of Cynthia L. Quarterman, Administrator-Designate, 
Pipeline and Hazardous Materials Safety Administration, U.S. Department 
                           of Transportation
    Chairman Rockefeller, Senator Hutchison and other distinguished 
members of the Committee, it is a privilege to appear before you this 
afternoon.
    I welcome the opportunity to testify today with this other 
distinguished nominee as you consider my nomination to serve as the 
Administrator of the Pipeline and Hazardous Materials Safety 
Administration (PHMSA) of the United States Department of 
Transportation. I am honored to have been nominated by President Obama 
for this important position and, if confirmed, look forward to joining 
Secretary LaHood and his strong leadership team at the Department. My 
plan is to dedicate myself fully, working closely with you, to ensuring 
that PHMSA meets its vital safety mission.
    At your indulgence, I would like to take a moment to publicly thank 
my husband, Pantel is Michalopoulos, who is here with me today, and our 
three-year old daughter, Charis, for their unwavering support of my 
decision to return to public service.
    As the Committee is well aware, the agency is in its infancy, 
having been established only 3 years ago to ensure the safe and 
environmentally sound transportation of hazardous materials through our 
country. I believe that my more than 20 years of experience, in private 
practice and government service, involving the transportation of 
hazardous materials by pipeline provides me with the necessary 
substantive knowledge to lead this agency forward. In addition, I 
believe that my government service at the Department of the Interior 
and my private practice at Steptoe & Johnson, LLP, have provided me 
with substantial management and leadership experience that will help me 
to succeed in the position for which I have been nominated. My work 
experiences have given me an excellent perspective on how organizations 
and their personnel work, how to ensure focus on mission objectives and 
achieve the performance results that the Administration, the Congress 
and the public expect and deserve.
    As Director of the Minerals Management Service (MMS), I had the 
overall management responsibility for an organization of more than 
1,200 employees with a budget of more than $200 million and revenue 
collections in the billions. One of its primary roles was the safe and 
environmentally sound oversight of mineral, oil and gas exploration, 
development and production on the Nation's outer continental shelf. 
Those operations involve the use, exploitation and transportation of 
hazardous materials, including by pipeline. I oversaw a team of 
inspectors, engineers, and scientists who helped to ensure that the 
agency's mission was fulfilled despite operating in a period of great 
expansion into the deepest offshore areas, and fulfilled it was without 
any serious incident. We worked hand-in-hand with other entities, 
including the Coast Guard, PHMSA's predecessor agency, NOAA, EPA, the 
states, the environmental community, industry and many others. Owing to 
the offshore development nature of its mandate, MMS's programs were 
often controversial; I nonetheless was able to move the agency from 
conflict toward consensus. One indication of that success was the MMS's 
receipt of the Hammer Award for innovation in government. If confirmed, 
I will do everything in my power to improve the operations of PH MSA 
continuously so that we as a Nation can provide the highest caliber of 
safety for the transportation of hazardous materials to protect our 
communities and the public at large.
    Mr. Chairman and other distinguished Members of the Committee, if 
confirmed, I commit to you that I will work diligently to fulfill the 
responsibilities entrusted to me. Thank you.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): Cynthia 
Louise Quarterman; family nicknames--Cindy or Cyndi.
    2. Position to which nominated: Administrator, Pipeline and 
Hazardous Materials Safety Administration, Department of 
Transportation.
    3. Date of Nomination: September 15, 2009.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

        Office: Steptoe & Johnson, LLP, 1330 Connecticut Avenue, NW, 
        Washington, DC 20036.

    5. Date and Place of Birth: April 6, 1961; Savannah, GA.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Spouse: Pantelis Michalopoulos, Partner, Steptoe & Johnson LLP; 
        Daughter-- Charis Michalopoulos, Birthdate: September 3, 2006.

    7. List all college and graduate degrees. Provide year and school 
attended.

        Northwestern University, B.S., Industrial Engineering, 1983.
        Columbia University School of Law, J.D., 1987

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

    Post-Undergraduate Employment

        IBM, Cost Engineer, Owego, NY 1983-84, 6/85-9/85.

        Broome County Legal Assistance Corp., Binghamton, NY 6/85-9/85.

        Morrisey & Thrope, Legal Intern/Summer Associate, New York, NY 
        6/86-8/86.

        Benson & McKay, Associate, Kansas City, MO 5/87-6/88.

        Steptoe & Johnson, LLP, Associate, Washington, D.C. 7/88-7/93.

        Department of the Interior, Minerals Management Service (MMS), 
        Deputy Director, 7/93-3/95; Director, 3/95-2/99.

        Department of the Interior, Office of Surface Mining, Interim 
        Management Team, 11/93-94.

        Steptoe & Johnson, LLP, Partner, Washington, D.C. 9/99-present.

    Highlighted Employment

        Department of the Interior, Minerals Management Service, Deputy 
        Director, 7/93-3/95; Director, 3/95-2/99.

        Department of the Interior, Office of Surface Mining, Interim 
        Management Team, 11/93-94.

        Steptoe & Johnson, LLP, Partner, Washington, D.C. 9/99-present.

    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years.
    Presidential Transition Team, Department of Energy, Agency Review, 
November-December 2008.
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years.

        Partner, Steptoe & Johnson, LLP (1999-present).

        President and Board member, Columbia Law School Alumni 
        Association of Washington, D.C. (2004-present).

        National Council member, Shakespeare Theatre Company (2005-
        present).

        Executive Committee and Advisory Board member, Institute of 
        Energy Law (2002-present).

        Editorial Advisory Board member, Natural Gas Magazine (2000-
        present).

        Board member, American Friends of the New Acropolis Museum 
        (2008-present).

        Agent, Philip Blackpeat author of ``The War of Art'' (2004-
        present).

    12. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.
    To my knowledge, I am not a member of any organization that 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        From 1999 to present, American Bar Association (Vice Chair Oil 
        and Natural Gas Exploration and Production Committee, Section 
        of Environment, Energy, and Resources 2001-03).

        Energy Bar Association (Chair, Environment and Public Lands 
        Committee, 2002-03), 1999-present.

        Women's Bar Association, 1999-present.

        American Friends of the New Acropolis Museum, 2008-present.

        Columbia Law School Alumni Association of Washington, DC 
        (President 2004-08, Board member 2000-present).

        Columbia Law School Alumni Association, from at least 1999-
        present.

        Northwestern University Alumni Association, from at least 1999-
        present.

        Institute of Energy Law, 2001-present.

        District of Columbia Bar, 1989-present.

        Missouri Bar 1987-present.

        Federal Bar Association, from about 1999-2001.

        Women's Council on Energy and the Environment, 2000-present.

        Columbia Hospital for Women Board of Directors, 1999-2002.

    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt.
    Yes, I was Deputy Director and then Director of the Minerals 
Management Service at the Department of the Interior. I have never 
campaigned for office.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period.





        Barack Obama for President                     $4,600        2/2007-7/2008
        John Kerry for President                       $2,000               3/2004
        Al Gore for President                          $1,000        4/1999-5/2000
        Jean Carnahan                                    $500              10/2002
        DNC                                              $971        4/2003-7/2008
        Steptoe & Johnson LLP PAC                        $500               2/2008



    On a volunteer basis, I provided policy advice to the Gore, Kerry 
and Obama Presidential campaigns about energy issues relating to 
moratoria on the outer continental shelf and its exploration and 
development.
    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        National Achievement Scholarship.

        National Action Council for Minorities in Engineering 
        Scholarship.

        Phi Eta Sigma Honor Society.

        Alpha Lamba Delta Honor Society.

        Department of the Interior Unit Award for Excellence of 
        Service.

        Tahirh Justice Center Certificate of Appreciation.

        Washington Lawyers Committee Pro Bono Recognition.

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.

    Publications

        On MMS's regulations under The Energy Policy Act of 2005 for 
        alternative energy-related uses on the Outer Continental Shelf, 
        Lexis/Nexis Expert Commentary, Sept. 2008.

        On MMS's Rule on Open and Non-discriminatory movement of oil 
        and gas as required by the Outer Continental Shelf Lands Act, 
        Lexis/Nexis Expert Commentary, July 2008.

        MMS Regulations, Case Law Governing the deductibility of post-
        production costs on Federal and offshore leases, 57th Annual 
        Conference on Oil and Gas Law, Feb. 2006.

        Transparency and Change Management White Paper for Nigeria's 
        Extractive Industries Transparency Initiative, Apr. 2005.

        Law of LNG: U.S. Terminals offshore, Institute of Energy Law, 
        Sept. 2004.

        Oil and Gas Leasing and Permitting, Advanced Conference on 
        Federal Lands and Natural Resources Law, Sept. 2003.

        MMS, Interior in Center of Debate about production activity, 
        Regulation 2002, Chapter 16, Natural Gas & Electric Power 
        Industries Analysis: 2002 Edition, a New Annual Series.

        Sale 181--an opportunity missed?, Oil & Gas Journal, July 9, 
        2001.

        OPA 1990 at Ten, Natural Resources and Environment, Summer 
        2000.

        FERC OCS Regulation Still Needs Clarification, Natural Gas 
        Magazine, June 2000.

        Court battles, OPEC's market grip underscores the need for a 
        coordinated U.S. energy policy, Oil & Gas Journal, Mar. 2000.

        In addition, while I was the Director of MMS, I believe I 
        authored a handful of articles that appeared in trade or 
        industry publications, but I have not kept any records of 
        these.

    I have given many speeches, but none relevant to the position for 
which I am nominated.
    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.

        6/28/94 Testimony as Deputy Director MMS before the House 
        Subcommittees on Energy and Mineral Resources and Oceanography, 
        Committees on Merchant Marine & Fisheries & Resources regarding 
        reauthorization of the Coastal Zone Management Act.

        7/26/94 Testimony as Deputy Director MMS before the House 
        Subcommittees on Energy and Mineral Resources and Oceanography, 
        Committees on Merchant Marine & Fisheries & Resources regarding 
        H.R. 3678 and the use of the OCS for mineral resources.

        3/9/95 Testimony as Director MMS before the House 
        Appropriations Subcommittee on Interior & Related Agencies 
        regarding MMS's FY96 Budget request.

        7/27/95 Testimony as Director MMS before the House Subcommittee 
        on Energy and Mineral Resources, Committee on Resources 
        regarding Reinvention of the MMS.

        3/7/96 Testimony as Director MMS before the House Subcommittee 
        on Energy and Mineral Resources, Committee on Resources 
        regarding the History and Evolution of MMS and whether it 
        requires an organic act.

        6/17/96 Testimony as Director MMS before the House Subcommittee 
        on Energy and Mineral Resources, Committee on Resources 
        regarding the valuation of crude oil produced offshore 
        California.

        6/27/96 Testimony as Director MMS before the House Subcommittee 
        on Energy and Mineral Resources, Committee on Resources 
        regarding MMS's royalty in kind gas marketing pilot.

        8/6/96 Testimony as Director MMS before the House Subcommittee 
        on Fisheries, Wildlife and Oceans, Committee on Resources 
        regarding competitive lease sales of sand and gravel offshore 
        New Jersey.

        7/31/97 Testimony as Director MMS before the House Subcommittee 
        on Energy and Mineral Resources, Committee on Resources 
        regarding royalty in kind program.

        2/26/98 Testimony as Director MMS before the House Subcommittee 
        on Energy and Mineral Resources, Committee on Resources 
        regarding MMS's FY1999 budget request.

        3/19/98 Testimony as Director MMS before the House Subcommittee 
        on Energy and Mineral Resources, Committee on Resources 
        regarding royalty in kind program and pending bill H.R. 3334.

        5/14/98 Testimony as Director MMS before the House Subcommittee 
        on Energy and Mineral Resources, Committee on Resources 
        regarding moratoria on the outer continental shelf.

        5/21/98 Testimony as Director MMS before the House Subcommittee 
        on Energy and Mineral Resources, Committee on Resources 
        regarding royalty in kind program.

    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    I have been involved, through the practice of law and in 
government, with the legal and regulatory issues associated with the 
transportation of hazardous materials by pipeline for more than 20 
years. I thoroughly enjoy public service and would like to lead and 
improve operations at PHMSA.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    I believe that I would have every responsibility to ensure that 
PHMSA has both proper management and accounting controls. I have 
experience running an agency (MMS) with more than 1,200 employees with 
a budget of more than $200 million and annual revenue collections of 
more than $6 billion. During my tenure there, the agency received the 
Hammer Award for Innovation in government.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?
    I believe the top challenge facing PHMSA are the aging pipeline and 
other transportation infrastructure systems in this country. Ensuring 
safe and environmentally sound transportation of hazardous materials 
given the current state of the country's transportation infrastructure 
is an ongoing and perhaps escalating challenge. Second, the state of 
the Nation's infrastructure has led to public distrust and insecurity 
about hazardous materials transportation: that trend needs to be 
reversed. Finally, preparing the existing regulatory system to address 
the new challenges of the 21st Century, such as the possibility of 
increased interstate transportation of carbon dioxide or natural gas 
from Alaska, is an important challenge PHMSA must be prepared to meet.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    I have several retirement accounts from Steptoe & Johnson LLP, 
including a: (1) 401 K account; (2) 401 O account, funds in both 
accounts may remain in the program, be cashed out or rolled over upon 
leaving the firm; (3) capital account, which will be returned if I am 
confirmed; (4) defined benefit pension account that may be withdrawn in 
2010; and (5) deferred compensation account that may be withdrawn in 
January 2014. I will also receive the remainder of my partnership share 
for work performed in 2009 if I am confirmed. I have been making 
contributions to those accounts and Steptoe & Johnson LLP will not make 
any payments into those accounts after I resign from the firm if I am 
confirmed. I also have a Thrift Savings Plan from my time in 
government.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain: No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Transportation's 
ethics official to identify potential conflicts of interest. Any 
potential conflicts of interest will be resolved in accordance with the 
terms of an ethics agreement that I have entered into with the 
Department's designated agency ethics official and that has been 
provided to this Committee. I am not aware of any other potential 
conflicts of interest.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Transportation's 
ethics official to identify potential conflicts of interest. Any 
potential conflicts of interest will be resolved in accordance with the 
terms of an ethics agreement that I have entered into with the 
Department's designated agency ethics official and that has been 
provided to this Committee. I am not aware of any other potential 
conflicts of interest.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    I have drafted a piece of legislation in February 2009, on behalf 
of Lennar Ventures regarding the use of solar panels on new homes. I 
have written a White Paper regarding Nigeria's oil and gas leasing 
program (4/05) as well as provided advice (1/07) regarding proposed 
legislative and regulatory language for the mining industry for the 
Nigerian Extractive Industries Transparency Initiative. In addition, I 
have provided policy advice to the Gore, Kerry and Obama Presidential 
campaigns about energy issues relating to moratoria on the outer 
continental shelf and its exploration and development. I also worked on 
the Presidential Transition Team for the Obama Administration 
(reviewing the Department of Energy) and have had one or two 
conversations this year with White House staff on energy issues.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Transportation's 
ethics official to identify potential conflicts of interest. Any 
potential conflicts of interest will be resolved in accordance with the 
terms of an ethics agreement that I have entered into with the 
Department's designated agency ethics official and that has been 
provided to this Committee.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain: No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain: No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain.
    When I was Director of the MMS, I was sued in my official capacity 
several times. Based on a public records search, the following reported 
cases include my name as a party in my official capacity:

        OXY USA, Inc. v. Babbitt, 230 F.3d 1178 (10th Cir. 2000);

        Amax Land Co. v. Quarterman, 181 F.3d 1356 (D.C. Cir. 1999);

        Mobil Exploration & Producing U.S., Inc. v. DOI, 180 F.3d 1192 
        (10th Cir. 1999);

        OXY USA v. Babbitt, 122 F.3d 251 (5th Cir. 1997);

        Black Butte Coal Co. v. U.S., 38 F.Supp.2d 963 (Dist. Wyo. 
        1999);

        Amax Land Co. v. Quarterman, 1998 U.S. Dist. LEXIS 11635 
        (D.D.C. 1998).

    In 1983, I graduated from college in Evanston, Illinois and 
accepted full-time employment from IBM in Owego, New York and paid all 
relevant taxes associated with that income. However, I inadvertently 
failed to pay taxes on a $1,642 death benefit from my father's Federal 
service that I had received earlier in 1983. After I subsequently 
learned that a judgment had been entered in absentia, I paid New York 
State and Federal taxes on that income.
    (In addition, Steptoe & Johnson, LLP, where I am partner but not an 
officer, has been involved as a party in suits, but none have involved 
me personally).
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain: No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination.
    N/A.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                    Resume of Cynthia L. Quarterman
Professional Experience
    Presidential Transition Agency Review Team--Department of Energy, 
November-December 2008, Washington, D.C.

        Responsible for interviewing agency personnel and meeting with 
        stakeholders regarding the Office of Fossil Energy, the General 
        Counsel's office, the Energy Information Agency and the Office 
        of Hearing and Appeals.

    Partner--Steptoe & Johnson, LLP, September 1999 to Present, 
Washington, D.C.

        Practices law in the energy, transportation and natural 
        resource areas. Represents companies before the Federal Energy 
        Regulatory Corn mission, the Department of Transportation, the 
        Surface Transportation Board, the Department of the Interior 
        and various other Federal agencies and state and Federal 
        courts.

        Representative matters include:

        Involvement in litigation regarding transportation contract 
        disputes with coal powered electric utilities;

        Management of large attorney review team in proposed electric 
        utility merger, including the Nation's largest nuclear fleet 
        owner;

        Participation in numerous requests for declaratory orders and 
        offers of settlement for expansions associated with world's 
        longest oil pipeline, delivering crude to the U.S. from the 
        Alberta oil sands;

        Advice to Nigerian quasi-governmental entity regarding how to 
        achieve transparency in oil and gas leasing and oversight, and 
        how to design new solid minerals oversight agency;

        Advice to outer continental shelf lessee regarding arguments 
        supporting takings litigation; and

        Advice to pipeline owners regarding DOT compliance orders.

    Director, Minerals Management Service--United States Department of 
the Interior, March 1995-February 1999, Washington, D.C.

        Managed agency of 1200+ employees with $200+ million budget. 
        Oversaw oil, gas and mineral leasing and development on the 
        Nation's outer continental shelf. Collected billions in revenue 
        from the production of such commodities on Federal and Indian 
        lands. Disbursed revenue to Indians, states, funds and the 
        Treasury. Involved in early evaluation of offshore wind 
        projects. Oversaw agency appellant, inspection, environmental 
        and technical research arms. Also served as Acting Director, 
        Deputy Director and CFO, beginning in July 1993.
        Specific accomplishments include:

        negotiated agreements to settle billion dollar claims on leases 
        subject to moratoria offshore Alaska and Florida; resolved 
        hundreds of millions of dollars in disputed royalty claims; 
        held workshops and meetings to move from conflict toward 
        consensus on many different issues;

        represented agency on television and in newspaper interviews; 
        organized and participated in many national and international 
        conferences; delivered multiple of speeches; represented agency 
        before Congress, highest levels of Federal and State 
        governments, the oil, gas and minerals industry and 
        environmental groups on numerous occasions;

        assisted in passage of several Federal laws; and

        streamlined agency operations (decreased personnel 12 percent 
        and operated without budget increase for 4 years); managed 3 
        record-breaking Gulf of Mexico oil and gas lease sales in a 
        row; modernized information systems for Year 2000 compliance 
        and inaugurated popular, easy-to-use website; collected an 
        additional $1 billion in royalty compliance efforts; developed 
        innovative GovWorks Acquisition Program and won the Vice 
        President's Hammer Award for Reinvention of Government.

    Interim Management Team, Office of Surface Mining--United States 
Department of the Interior, November 1993-March 1994, Washington, D.C.

        Helped manage the daily operations of the agency during the 
        search for, and confirmation of, a new Director. Interviewed 
        staff and constituents and proposed detailed management plan 
        that was implemented by the new Director. Received the 
        Department of the Interior's Unit Award for Excellence of 
        Service.

    Associate--Steptoe & Johnson, July 1988-July 1993, Washington, D.C.

        Practiced administrative energy, transportation and 
        environmental law and litigation, in a variety of venues, 
        including Federal and state courts, the FERC and the then-
        Interstate Commerce Commission. Wrote briefs, took depositions, 
        cross-examined witnesses, and argued motions.

    Attorney--Benson & McKay, May 1987-June 1988, Kansas City, MO.

        Participated in high-profile school desegregation litigation 
        through appellate review. Second-chaired oral argument in 8th 
        Circuit, cross-examined witnesses at District Court, took 
        depositions, and wrote briefs.

    Cost Engineer--International Business Machines Corporation, May 
1983-August 1984 and Summer 1985, Owego, NY.

        Developed, analyzed and negotiated with Navy cost proposals for 
        computer systems on Federal aircraft.

        Various other summer jobs in Georgia, Illinois and New York.
Education
    Juris Doctor, Columbia University, May 1987, New York, NY..

        Columbia Journal of Environmental Law, Executive Editor. 
        Charles Evans Hughes Scholar.

    Bachelor of Science in Industrial Engineering, Northwestern 
University, March 1983, Evanston, IL.

        National Achievement Scholar. National Action Council For 
        Minorities in Engineering Scholar. Alpha Lambda Delta Honor 
        Society. Phi Eta Sigma Honor Society. Dean's List. Resident 
        Assistant.
Professional Affiliations
    Institute of Energy Law, Executive Committee, 2002-Present.

    Columbia University Law School Alumni Association of Washington, 
D.C., Board Member, recent past President, 2000-Present.

    Natural Gas Magazine, Advisory Board, 2000-Present.

    Missouri and District of Columbia Bar Member.
Civic Affiliations
    American Friends of the New Acropolis Museum, Founding Board 
Member, 2008-Present.

        Supports opening and successful operation of New Acropolis 
        Museum in Athens, Greece.

    Shakespeare Theatre Company, National Council, 2005-Present.

        Assists the Shakespeare Theatre Company in broadening its reach 
        nationally and internationally.

    Columbia Hospital for Women, Board of Directors, 2000-2002.

        Chaired non-profit women's hospital board's legal subcommittee.

        References, publications and speaking engagements available 
        upon request.

    Senator Pryor. Thank you very much.
    I want to thank both of you.
    Now, since Senator Lautenberg is here, and he's the 
Chairman of the subcommittee with the jurisdiction, I'll defer 
my question time to you, Senator Lautenberg.
    Senator Lautenberg. Thanks very much, Senator Pryor.
    And, Ms. Ferro, I'm going to ask several questions, and 
I'll try to keep the questions short; you try to keep the 
answers short, and we'll be able to get to the things that we 
want to.
    You've spent the last 6 years lobbying on behalf of the 
trucking industry, and you've had close ties to this industry. 
And how do we assure ourselves that you'll be an independent 
safety regulator?
    Ms. Ferro. Senator, if I might step back to my career as a 
State regulator, an agency leader and advocate for highway 
safety, with my years leading the Maryland Motor Vehicle 
Administration. When I made the transition to the Maryland 
Motor Truck Association, I continued in that vein of advocating 
for safety, in this case, a safe and efficient industry.
    I assure you, and make a personal commitment to this 
committee, that my passion is highway safety. Secretary 
LaHood's top priority is safety and teamwork, and I am fully 
committed and fully prepared to implement those measures that 
achieve the greatest safety gains we need to achieve in the 
motor carrier industry.
    Senator Lautenberg. Despite evidence that driver fatigue--
and you recognized that in your opening statement--is a factor 
in many fatal truck crashes, the Bush Administration sought to 
allow truckdrivers to stay behind the wheel for longer periods 
of time.
    Now, in your current position, you wrote a letter to the 
editor of The Baltimore Sun, earlier this year, supporting the 
Bush hours-of-service rule. If confirmed, will you recommend to 
Secretary LaHood that the hours-of-service rule be revisited 
and improved?
    Ms. Ferro. If confirmed, I am firmly committed to reviewing 
the data, the research, and the analysis of the effects of the 
current rule, and use that information to advance improvements, 
where and if it's determined that improvements should be 
necessary. And I assure you again, if confirmed, that this 
committee has my strongest commitment to advance measures that 
achieve the safety gains and address the driver health and 
wellness issues that this committee and Secretary LaHood seeks 
for this industry.
    Senator Lautenberg. The electric onboard recorders 
accurately track the number of hours a truckdriver is behind 
the wheel. And despite the NTSB's recommendation to install the 
EOBRs on all interstate trucks, the Administration proposed 
requiring this technology on the smallest percentage--1 percent 
of all the trucks on the road. Now, do you agree with the NTSB 
that the EOBRs should be required for all trucks?
    Ms. Ferro. I am familiar with the NTSB recommendation, and 
understand that the past Administration put forward a very, 
very limited rule concerning electronic onboard recorders. That 
being said, EOBRs are in use today in motor carriers, and have 
been demonstrated to be very effective. If confirmed, EOBRs and 
examining the opportunities for the best safety gains from 
EOBRs would be among my top priorities.
    Senator Lautenberg. Yes. I hear you, Ms. Ferro.
    Ms. Ferro. I know.
    Senator Lautenberg. And you say you're going to revisit 
these things.
    Ms. Ferro. Yes, sir.
    Senator Lautenberg. Are you willing--or, do you agree that 
it might be a good idea to get EOBRs on all the trucks out 
there?
    Ms. Ferro. Senator, what I would say is, I agree that the 
EOBR is a technology that offers significant gains in safety 
enforcement for the law enforcement community, and offers 
significant gains in operations.
    Senator Lautenberg. How would you position your views on 
that? What I hear you saying is, you're not certain that--it 
might be good for the law enforcement community and--but, these 
devices, things that can improve safety--and if they do--do you 
agree that they can improve safety, or at least inspection of--
--
    Ms. Ferro. I agree they've been demonstrated to improve 
safe operations and inspection efficiency.
    Senator Lautenberg. Right so why wouldn't we want to have 
them in all trucks? I'm not sure----
    Ms. Ferro. Senator, I appreciate your question and the 
importance of the EOBR, and am committed to putting that rule 
and that particular issue among my top priorities, in the 
interest of advancing the safety mandate of this agency.
    Senator Lautenberg. Yes, but do you----
    I'm sorry?
    Ms. Ferro. In the interest of advancing the safety mandate, 
and my personal mission, the safety mandate of this agency, if 
confirmed, I would look at the EOBR as a valuable safety tool.
    Senator Lautenberg.Well, you are conditioning it based on 
discoveries yet to be made, and I think that--I'd like a more 
affirmative answer to that question.
    I would ask your indulgence to ask----
    Senator Pryor. Sure.
    Senator Lautenberg.--one more--or, will we to go further? 
We'll do it again.
    Senator Pryor. We'll do a second round, yes.
    Senator Lautenberg. OK.
    Thank you very much, Mr. Chairman.
    Senator Pryor. Senator Hutchison?
    Senator Hutchison. Well, thank you, Mr. Chairman.
    Let me start with Ms. Ferro, on the bus safety issue. Many 
operators who are put out of business because of a safety 
violation just turn around and file under a new name, new 
charter, and they don't correct the safety violation, and they 
go forward.
    As I mentioned, Senator Brown and I have offered 
legislation to try to strengthen bus safety requirements. I'd 
like to ask your view on what you think would be fair 
requirements for motorcoaches that are offered to the public, 
in safety, and what you would do if you are the Administrator 
of this agency.
    Ms. Ferro. Senator, while I'm not prepared, today, and not 
knowledgeable enough, to advance specific recommendations, as 
your question suggests, I would say that my familiarity with 
the GAO report concerning chameleon carriers and the activity 
of motor-coach companies to restructure and come back to avoid 
sanctions is a significant safety issue.
    I'm pleased to learn that the agency is, in fact, taking 
measures to improve the review of new entrants into the 
motorcoach sector. But, the very issue you speak of rings true 
to my opening remarks, that, to the extent that the barrier to 
entry is low and not rigorous enough, unsafe carriers get into 
the system or get back on the system.
    Senator Hutchison. Do you think----
    Ms. Ferro. My apologies.
    Senator Hutchison. Excuse me. Do you think safety belts 
would be a simple enough requirement for buses that are offered 
to the public?
    Ms. Ferro. Safety belts actually would fall under NHTSA, 
not the Federal Motor Carrier Safety Administration. But, to 
the extent that FMCSA had an opportunity to speak to the safety 
gains of particular technologies, if confirmed, I would hope 
I'd have an opportunity to speak to those issues. But, again, 
safety belts would be under NHTSA's authority.
    Senator Hutchison. Right, I know. I just thought, in 
general, if you would have an opinion.
    Ms. Quarterman, you're probably familiar with the Inspector 
General's report on PHMSA, and I will just quote to you part of 
that report. It says that, ``PHMSA grants special permits and 
approvals without exercising its regulatory authority to review 
applicant safety histories and without coordinating with 
partner safety agencies. These issues, along with safety 
concerns previously raised by our office, the FAA, the NTSB, 
call into question the effectiveness of the agency and the 
process for granting special permits and approvals.''
    If confirmed, what would you do to address the IG's report?
    Ms. Quarterman. Thank you, Senator Hutchison, for your 
question.
    And I have to say, I share you concerns with respect to the 
safety issues that have been raised from the Inspector 
General's report. I am familiar with those, and, if confirmed, 
I can promise you that I will work very hard to implement the 
terms of the plan of action that Secretary LaHood has already 
put in place with respect to special permits related to the 
hazardous materials portion of the agency.
    In addition to that, I would like to step back and take a 
further and closer look at how that portion of the agency is 
operating. While I know that PHMSA has a large staff of 
excellent career employees working for it, I think it may be 
time for us to reform some portions of the operations of that 
agency. I think I would enjoy doing that, and I look forward to 
doing so.
    Senator Hutchison. Thank you.
    Ms. Ferro, one last question.
    I'm sure you read The New York Times this morning, and 
others have filed letters saying that you're too close to the 
industry. I'd like to give you an opportunity to respond to 
critics who say that you're a lobbyist or you're too close to 
the industry to be a fair arbiter of safety issues.
    Ms. Ferro. Senator Hutchison, thank you for that 
opportunity.
    Yes, the concerns expressed in the editorial have been 
shared in the past.
    During my career in government, as well as my time with the 
Trucking Association, I have been an advocate for safety. I 
continue to press ahead with my own passion for safety.
    The measures I have taken and my record in government, as 
well as the issues that I've advocated for in recent years, 
speak to my very firm and passionate commitment to the agency's 
mission, which is to reduce the severity of crashes. That 
record includes implementing a very effective graduated 
driver's licensing law in Maryland, identifying and working 
closely with the Medical Advisory Board in Maryland on 
innovative older-driver research and remediation, as well as 
interlock devices for drunk drivers.
    Most recently, Maryland passed a ban on texting while 
driving. I advocated in support of that ban, as well as speed 
enforcement cameras.
    My position on safety is firm and, should I be confirmed, 
safety is a unifying message, under Secretary LaHood's 
leadership, and I would expect my agency to fall in line with 
that message and passionately pursue safety gains both as 
mandated, as well as set forward in the Secretary's vision.
    Senator Hutchison. Thank you.
    Thank you, Mr. Chairman.
    Senator Pryor. Thank you.
    Senator Udall?

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you, Chairman Pryor.
    Ms. Quarterman, the--as you're aware, pipelines are a key 
component of our Nation's transportation infrastructure. Many 
Americans are probably not aware that they live or work or 
pursue recreational activities near pipelines. Ensuring their 
safety, I think, is a very, very important responsibility.
    In 2000, a quiet summer morning was shattered when a gas 
pipeline ruptured and burst into flames near Carlsbad, New 
Mexico. The fireball could be seen 20 miles away. Tragically, 
12 people who were camping along the Pecos River were killed. 
This was the worst pipeline incident in the continental United 
States. I wish I could say it was the last, but tragedy has 
struck again since then.
    What have we done to prevent further pipeline catastrophes? 
And what more will you do, as the PHMSA Administrator, to 
ensure pipeline safety?
    Ms. Quarterman. Thank you, Senator Udall, for that 
question. It is a very important question, and will probably be 
the most difficult part of being the PHMSA Administrator; 
dealing with situations where a harrowing tragedy, such as the 
one that occurred in New Mexico, happens, and having to reach 
out to families to talk about how it happened and how we're 
going to make sure that is doesn't happen again.
    I think, since that time, the Senate itself, working with 
the House, has done quite a bit to help improve pipeline safety 
measures by putting forward two new pieces of legislation that 
have improved the operations of pipelines significantly.
    Today, most pipelines are currently under an integrity 
management plan, where there has been a consideration of what 
are the highest-consequence areas near a pipeline facility. 
Additional testing has been done on those pipelines.
    I think, at this point in time, because those rules have 
gone into effect in most places, although not completely, it's 
time for us to take a closer look at what we have learned in 
response to those rules, and the timing for integrity 
management testing, to ensure that they are at the correct 
period of time. Also, I think the most important thing that we 
can do is to identify the problems that have been shown as a 
result of these accidents, come up with solutions for them, 
including regulatory solutions, inspect to make sure that those 
solutions are in place, and, if not, enforcing decisions and 
orders by the Department.
    Senator Udall. Now, in your answer, you seemed to suggest 
that there were some areas where there were not regulations in 
place. Is this a small number? A large number? What pipelines 
are those?
    Ms. Quarterman. Well, I think the agency has just been 
going through a series of rulemakings, beginning with some of 
the larger pipelines on the oil side, and then gas; and now 
they're getting to low-stress pipelines and distribution gas 
lines. So, it's working its way through the entire cadre of 
pipelines that exist. There may be a point where we can step 
back and take a look at what the results of that new regulation 
have been, and where to go a step further.
    Senator Udall. And I think that'll be very, very welcome.
    Thank you, Mr. Chairman.
    Senator Pryor. Thank you.
    Ms. Quarterman, let me start with you if I may. This agency 
is a fairly new agency--what, just 2 or 3 years old, or 4, 
maybe?
    Ms. Quarterman. Yes.
    Senator Pryor. How is it doing? And where do you think this 
agency can improve?
    Ms. Quarterman. Thank you, Chairman Pryor, for your 
question. The agency is 3 years old, the same age as my 
daughter, but it has been around for quite a while, in a 
different format, as the Research and Special Programs 
Administration before that.
    My first priority will be safety, and it is the highest 
priority. I think the first issue on the table is the one that 
has been raised by the Inspector General and was discussed at 
the hearings last week, and that is on the hazardous-materials 
side of the agency, where it appears that reform is needed.
    Second to that, my priority would be in communications and 
transparency with the agency and with the community at large. I 
think it's very important that all the stakeholders have an 
opportunity to provide input into the process.
    I also would like to spend some time talking to the career 
folks at the agency for their input, if I'm confirmed; and, of 
course, with Congress, as well.
    Finally, I think the third priority will be reform. Once 
we've had a conversation with all the stakeholders involved, 
there's an opportunity for us to try to take this agency 
forward, to deal with aging pipeline infrastructure and be 
prepared for some of the challenges that are coming in the 21st 
century. For example, if there's a natural gas line in Alaska 
or if suddenly the carbon capture sequestration happens and 
there are carbon dioxide pipelines or ethanol pipelines that 
need to be put in place, all those things are things that I 
look forward to, if confirmed, helping this agency prepare for.
    Senator Pryor. Good.
    Ms. Ferro, let me ask you--there is legislation pending 
here in the Senate, S. 1113, the Safe Roads Act, which, if 
enacted, would direct the Secretary of Transportation to 
establish and maintain a national clearinghouse for records 
related to alcohol and controlled-substance testing of 
commercial motor vehicle operators. Have you had a chance to 
look at that legislation? And, if so, do you support that 
concept?
    Ms. Ferro. Mr. Chairman, I have looked at that legislation. 
In fact, during my tenure on the CDL Advisory Committee, 
appointed under SAFETEA-LU, I advocated strongly for the 
clearinghouse concept. Should I be appointed, I'm firmly 
committed to implementing that system in all due haste. Every 
opportunity we can have at hand to make sure that employers and 
roadside enforcement officers have access to important safety 
information about drivers, we must do.
    Senator Pryor. Great.
    And, let me also ask--there's been an issue, a consumer-
oriented issue, about household goods and moving household 
goods. And in May 2007, the GAO issued a report that made 
several recommendations for FMCSA to improve their oversight 
and to set performance goals to keep an eye on this industry. 
As with most industries, you know, there are several big name-
brand national operators that do fine, but there are also some 
really bad business practices with some of the fly-by-night 
operators, and the advent of the Internet has caused a lot of 
problems. There has just been a real consumer challenge there 
and it's your agency that is responsible for that. And so, do 
you have any ideas on how the FMCSA can more aggressively 
protect consumers when it comes to these unscrupulous 
household-goods movers?
    Ms. Ferro. Mr. Chairman, in my experience at the State 
level, also trying to tackle the issue of rogue companies in 
the moving industry, we found, and I would seek a similar 
partnership, should I be confirmed, that the State consumer 
advocacy groups, as well as the attorneys general, were very 
helpful in ensuring that consumer protection laws were upheld 
and violations investigated. Should I be confirmed, I would 
seek similar partnerships around the country. Again, it is an 
egregious abuse of a customer's confidence for a moving 
industry to take some of the actions we've read about, and 
seen, ourselves. I appreciate the interest that you have in 
that issue.
    Thank you.
    Senator Pryor. Well, thank you.
    And one last question before I turn it back over to Senator 
Lautenberg. There has been a cross-border trucking pilot 
program that's been, I guess you can say, controversial. There 
has been a tug-of-war, really, between the Congress and the 
Department of Transportation. You know, from my standpoint, I 
feel like the previous administration kind of handled this 
sloppily, and established a pilot program.
    How would you do a better job of implementing this program, 
should the Administration be authorized to reinstate it?
    Ms. Ferro. Mr. Chairman, if confirmed, my commitment and my 
objective would be to implement any program, should it be 
passed, to the standards, or to exceeding the standards, of the 
U.S. laws governing motor carrier safety so that any cross-
border trucking activity, any non-national company that would 
operate in the State, would have to adhere, at a minimum, to 
the U.S. safety standards, if not better.
    Senator Pryor. Thank you.
    Senator Lautenberg, did you have follow-ups?
    Senator Lautenberg. Thank you. Yes, I do. And--thanks, Mr. 
Chairman.
    Ms. Ferro, I'm going to read something that I have here. It 
comes from the Insurance Institute Highway Safety group. IIHS, 
Advocates for Highway and Auto Safety, and other highway safety 
and advocacy organization petitioned the USDOT to require EOBRs 
for trucks, claiming that mandated use of these devices would 
improve hours-of-service compliance and thereby reduce the 
number of fatigued drivers and fatigue-related crashes. USDOT 
repeatedly denied these petitions. Congress then intervened, 
requiring, in the 1995 Interstate Commerce Commission 
Termination Act--that the USDOT address the issue of EOBRs.
    After 5 years of delay, the FMCSA, in 2000, proposed to 
require EOBRs on commercial motor vehicles used in long-haul 
and regional operations. The Department of Transportation 
Office of the Inspector General summarized the proposed rule, 
and they said--here I quote, ``Driver HOS violations and 
falsified driver logs continue to pose significant safety 
concerns, and research has shown that fatigue is a major factor 
in commercial crashes.'' However, in 2003, the FMCSA backed off 
its proposal for mandatory EOBR use, concluding there was 
insufficient economic and safety data, coupled with a lack of 
support from the transportation community.
    Now, as I heard your response to my question, you promise 
to look at it, to see what it might be, and that you know that 
it might be good for law enforcement. But, you were still 
raising the question of confirmation. You obviously are not, at 
this point, convinced that the--these electronic onboard 
devices should be used. And I've got to tell you, I don't 
understand it, because here are countries that require EOBRs: 
all of the European Union countries, Brazil, Uruguay, Israel, 
Japan, Singapore, Argentina, Peru, Venezuela, Turkey, South 
Korea, and Morocco. They all require these. But, you express 
some doubt, some concerns about whether or not we ought to move 
ahead with this. Please explain that difference to me.
    Ms. Ferro. Senator Lautenberg, thank you for the 
opportunity to come back to this issue.
    First, if I might, the history you related of the series of 
petitions, and lack of response to petitions, that you convey, 
I find very troubling. In my commitment to the public sector 
and my passion for public service, I feel it is fundamentally 
important, as a regulator, to be responsive and to listen to 
the concerns raised, both by the regulated community and, most 
importantly, by the community the agency is established to 
protect.
    That being said, I don't want to suggest that it's a matter 
of being convinced or not. What I wanted to convey, and what I 
would like to continue to convey, is that, if confirmed, I will 
be a fair and balanced regulator, and will use both data-driven 
research, data-driven policymaking, and sound scientific 
research to address issues and accomplish gains within the 
Motor Carrier Safety Administration's mission to achieve 
significant reductions in truck and bus crashes, or crashes 
with trucks and buses. You absolutely have my commitment in 
that regard, Senator.
    Senator Lautenberg. Well, recent surveys by the Insurance 
Institute for Highway Safety--you know the organization?
    Ms. Ferro. Yes, I do.
    Senator Lautenberg. They're reliable--and the University of 
Michigan--show that 20 to 25 percent of drivers violate HOS 
rules. One in five drivers fell asleep at the wheel during the 
previous month, and work-rule violations are associated with 
dozens of incidents at the wheel. Similarly, the Commercial 
Vehicle Safety Alliance organization, the Annual Road Check 
Program, a nationwide truck safety and roadside inspection 
enforcement campaign, advertised, in advance, to the trucking 
industry, it's found an increasing percentage of HOS violations 
in recent years.
    So, your skepticism--and you're unwilling to make an 
unqualified commitment to having these safety devices aboard--
concerns me.
    Over the past decade, the number of people killed in 
crashes with large trucks has averaged 5,000 each year. And 
large trucks place a major strain on our infrastructure. There 
is currently a ban on trucks that weigh more than 80,000 pounds 
and are--that are longer than 53 feet, on our interstate 
highway system. Do you support expanding this ban to our 
160,000-mile national highway system?
    Ms. Ferro. Senator Lautenberg, the oversight of truck size 
and weight, or commercial vehicle size and weight, rests with 
Federal Highway Administration. In my role as Federal Motor 
Carrier Safety Administrator, should I be confirmed, it would 
be my top priority to ensure safety. Among the elements of that 
discussion, that I could offer, would be things that I would be 
committed to offering in the discussion within the agency on 
Federal size and weight.
    Senator Lautenberg. If confirmed as Administrator, what 
would be your top three safety recommendations to Secretary 
LaHood to improve truck safety and to reduce the number of 
fatalities that are caused by large trucks?
    Ms. Ferro. Top three in the near term? Work collaboratively 
within the Department of Transportation to identify best 
practices to tackle the issue of fatigue and driver health 
within the transportation industry, the motor carrier industry; 
to place top priority on examining the impacts and effects of 
the current hours-of-service rule, and identifying areas of 
further discussion, to advance additional gains in driver 
safety and commercial vehicle safety; and to examine an 
electronic onboard recorder program, and research and identify 
tools that both dramatically assist a commercial roadside 
enforcement officer in assessing unsafe carrier action, but 
also assist the industry greatly in improving safe operations.
    Senator Lautenberg. I'm going to ask a question of Ms. 
Quarterman, please.
    The PIPES Act of 2006 requires greater use of excess flow 
valves in single-family residences to automatically shut off 
gas to valves in the event of a sudden drop in pressure. These 
excess flow valves reduce gas leaks that can lead to fires and 
explosions. The final rulemaking on this mandate was due on 
December 31, 2007. It still hasn't been completed.
    If you're confirmed, would you guarantee that you're going 
to resolve this long-overdue requirement expeditiously?
    Ms. Quarterman. Thank you, Senator Lautenberg.
    Yes, I'm aware of that requirement and the fact that it is 
long overdue, and you have my commitment that, if I am 
confirmed, it will be one of the things that is on my top 
priority list to see what is happening with the long delay in 
that and other important safety rules.
    Senator Lautenberg. Would you support the expansion of 
excess flow valves into buildings other than single-family 
homes, like apartment houses or office buildings?
    Ms. Quarterman. I would have to defer answering that 
question until I've had an opportunity to be confirmed and to 
meet with the staff and see what analysis they may have done 
with respect to the opportunity to expand on that. On a 
theoretical basis, it sounds interesting and intriguing, and I 
would look forward to working with you further on that.
    Senator Lautenberg. Thank you very much.
    Thanks, Mr. Chairman.
    Senator Pryor. Thank you, Senator Lautenberg.
    We've been joined by our distinguished colleague from 
Maryland.
    Senator Ben Cardin, you're recognized.

             STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Well, Senator Pryor, thank you very much.
    Senator Lautenberg, thank you for your participation.
    I just really wanted to come by to introduce and to support 
Anne Ferro's appointment to be the Federal Motor Carrier 
Administrator.
    I also want to thank Ms. Quarterman and Anne Ferro for 
their willingness to serve the public, and thank their 
families, because this is a sacrifice that you're making and we 
appreciate it very much, and wish both of you my best.
    Mr. Chairman, I'll put my entire statement--or, 
introduction in the record, because, as I explained--as I was 
going to tell you at lunch, I had to go upstairs to preside--
and I just got off the floor.
    Anne Ferro is well known in Maryland. She got her start on 
the staff of the Ways and Means Committee in the Maryland 
General Assembly. I mention that because that's where I got my 
start--on the Ways and Means Committee in the Maryland General 
Assembly, and later had a chance to chair that committee. And 
I--from the--both Democrats and Republicans in the State 
legislature, they think that Anne Ferro has the highest degree 
of professional skills and dedication to public service.
    She then was the Motor Vehicle Administrator in our State. 
And once again, she served under both a Democratic and a 
Republican Administration, and had the confidence of both 
Democrats and Republicans, and administered the agency with the 
highest degree of competence. I particularly appreciate taking 
on the challenge of dealing with youthful drivers in developing 
a system on the license where youthful drivers have a chance to 
get a little more experience. And that was--her leadership 
helped bring that about. There are many other innovations that 
she made in the Motor Vehicle Administration dealing with 
safety, some of which were difficult and controversial, but 
they were the right thing to do, and she took on those 
challenges.
    I was also particularly impressed by her commitment for 
diversity in the workplace, which she made a very high priority 
during her administration.
    So, I just really wanted to come by to strongly recommend 
her confirmation and tell you how proud we are, in Maryland, of 
her continued interest in public service.
    [The prepared statement of Senator Cardin follows:]

            Prepared Statement of Hon. Benjamin L. Cardin, 
                       U.S. Senator from Maryland
    Good afternoon. It is my pleasure to introduce Anne Ferro, 
President Obama's nominee for the position of Federal Motor Carrier 
Administrator in the Department of Transportation.
    During her time with the Maryland General Assembly, Ms. Ferro 
staffed the House Ways and Means Committee from November 1986 to 
November 1991, the same Committee I had the honor to chair from 1974 to 
1979.
    There's not a state legislator in Annapolis who wouldn't say Ms. 
Ferro will make a great Administrator for Federal Motor Carrier Safety 
agency. An example of their respect for her as a chief state regulator 
was displayed when ``both sides of the aisle'' called upon newly 
elected Governor Ehrlich to retract his termination notice to Ferro 
after the Governor's office switched from Democratic to Republican in 
2003. Governor' Ehrlich's appointments secretary reversed the decision 
and asked Ferro to stay.
    Ms. Ferro's safety record is strong. In her 7 years as Maryland 
Motor Vehicle Administrator, she secured passage of Maryland's 
graduated licensing law for young drivers and supported creation of an 
Older Driver research program to improve the safety of aging drivers.
    As the first woman to lead the state Motor Vehicle Administration, 
she was committed to restructuring the agency in a way that 
substantially increased advancement opportunities for minorities.
    Five years ago Ms. Ferro took the reins of the Maryland Motor Truck 
Association. While strengthening the association's service to its 
members, she worked hard to maintain an open dialogue between the 
trucking industry and government.
    Her commitment to highway safety is demonstrated in her service on 
the Executive Committee of Maryland's Strategic Highway Safety Plan, 
the Maryland Highway Safety Foundation and the American Trucking 
Association's Safety Task Force.
    She currently serves on several regional advisory committees 
relating to freight planning and transportation funding, and was 
honored as the Port of Baltimore's 2008 Port Woman of the Year.
    Anne Ferro will bring a balanced perspective to the position and a 
commitment to efficient and effective regulation over motor carrier 
safety.
    I urge the Committee to support her nomination.

    Senator Pryor. Thank you.
    If there are no other questions, what we would like to do 
is ask all the members who could not be here today, or who had 
to leave before they could ask questions, to get all their 
questions in to the Committee by the close of business 
Thursday, and the Committee staff will do their best to get 
those right to the two witnesses, here, the two nominees. And 
then, we'd look forward to having your responses back by the 
close of business on Tuesday of next week, on the 29th, if 
that's at all possible.
    But, we want to all thank you very much for your commitment 
to public service. Thank you for being here today.
    And with that, we're adjourned.
    Thank you.
    [Whereupon, at 3:30 p.m., the hearing was adjourned.]
                            A P P E N D I X

 Prepared Statement of Hon. John Thune, U.S. Senator from South Dakota
    Thank you, Mr. Chairman. I am pleased that the Committee is moving 
forward with today's nominations, which are for important safety posts 
within the Department of Transportation.
    The Federal Motor Carrier Safety Administration (FMCSA) serves a 
critical role in ensuring the safety of commercial vehicles through 
regulation and oversight. The agency, working in close cooperation with 
the States, also is responsible for enforcing safety regulations. I 
have the highest respect for the work FMCSA and the State inspectors do 
to protect the safety of South Dakota drivers. Like many rural States 
in the Midwest, South Dakota is a major freight corridor, linking the 
east and west via Interstate 90, and the north and south via Interstate 
29. More than two-thirds of the truck traffic on our highways neither 
begins nor terminates in the State.
    Anne Ferro, the President's nominee for the Administrator of FMCSA, 
is well-qualified for the position. She has many years' experience in 
transportation, serving as both the head of the Maryland Motor Vehicle 
Administration and, more recently, as the President of the Maryland 
Motor Truck Association. While her background with the Motor Truck 
Association has caused some to question whether she will be too close 
to the industry, I believe her knowledge of the industry is an asset 
that will make her more effective in protecting the public interest. 
And I want to thank her for taking the time to meet with me several 
weeks ago to discuss her background and the challenges facing the 
agency.
    The other nomination we consider today is that of Cynthia 
Quarterman, the President's nominee to serve as the head of the 
Pipeline and Hazardous Materials Safety Administration (PHMSA), as the 
agency is commonly known, is responsible for establishing regulations 
to safeguard the transportation of hazardous materials by all modes, 
including pipeline. With more than 6,000 miles of pipelines in South 
Dakota, and thousands of truck and rail shipments of hazardous 
materials through my home State each year, my constituents have a 
direct stake in Fem-za's success in ensuring that hazardous products--
many of which are essential to our way of life--are delivered safely.
    Ms. Quarterman also is a highly qualified candidate. Currently, she 
is a Partner at the law firm of Steptoe & Johnson, handling 
transportation and natural resource issues. During the Clinton 
Administration, Ms. Quarterman served as the Director of the Minerals 
Management at the Department of the Interior, and in that position 
oversaw the development on the Nation's outer continental shelf, 
including the transportation of hazardous materials by pipeline.
    I would like to welcome both of our nominees and thank you for your 
willingness to serve in these important positions. Thank you.
                                 ______
                                 
  Prepared Statement of Jennifer Tierney, Board Member, Citizens for 
    Reliable and Safe Highways (CRASH) and Daphne Izer, Co-founder, 
Parents Against Tired Truckers (P.A.T.T.) on behalf of the Truck Safety 
                               Coalition
    Chairman Rockefeller and Members of the Senate Commerce, Science 
and Transportation Committee, thank you for the opportunity to submit 
our statement for the record on the nomination of Anne S. Ferro, 
President and CEO of the Maryland Motor Truck Association, to be 
Administrator of the Federal Motor Carrier Safety Administration 
(FMCSA). We appreciate the attention this Committee has given to the 
issue of motor carrier and motorcoach safety. In the last Congress, the 
Committee held four separate hearings on motor carrier safety issues 
that severely criticized the agency for weak regulations or inadequate 
responses to critical safety problems. The hearings focused on critical 
and continuing failures of the FMCSA and its leaders to promulgate long 
overdue and lifesaving safety regulations to advance motor carrier and 
motorcoach safety. Each hearing exposed serious and chronic failures by 
the FMCSA to issue effective regulations, enforce safety rules, impose 
maximum fines, shut down unsafe carriers, implement statutory mandates, 
respond to National Transportation Safety Board (NTSB) recommendations, 
and protect the safety of American families and workers.
    We are here today to represent the families of truck crash victims 
and survivors who are concerned about the nomination of a trucking 
industry official to lead the Federal agency responsible for regulating 
and overseeing the safety of the motor carrier industry. The FMCSA is 
in dire need of new, safety-minded leadership that will put people 
first and will be truly dedicated to carrying out its statutory mission 
to make ``safety [its] highest priority.''
    We have paid the ultimate price for the failures of the FMCSA and 
its predecessors to responsibly carry out their safety and regulatory 
duties.
    In 1993, Jeff Izer, son of Daphne and Steve Izer, and three of his 
good friends were killed in a preventable truck crash when the driver 
fell asleep at the wheel of an 80,000 pound rig. Shortly thereafter, 
Daphne and Steve founded Parents Against Tired Truckers (P.A.T.T.). 
Despite a major U.S. Department of Transportation summit that 
identified fatigue as a serious problem, FMCSA responded with a 
regulation that substantially increases the number of working and 
driving hours of commercial drivers.
    In 1983, Jennifer Tierney's father, James William Mooney, Sr., was 
needlessly killed in another preventable truck side underride crash. 
Today, 25 years later, there is still no Federal standard for side 
underride protection and the agency has indicated it has no plans to 
even consider such a safety requirement.
    These are typical examples of the agency's far too frequent 
failures to advance necessary safety rules when there is a compelling 
and convincing need for action.
    After 10 years as an agency, the FMCSA still reports that every 
year about 5,000 people are killed and 100,000 more suffer injuries as 
a result of truck crashes. This includes over 500 truck drivers who die 
each year doing their jobs. In the decade since the agency was created 
by Congress there have been 50,000 truck crash deaths and over one 
million injuries.
    In fact, not only has the agency been unable to significantly 
reduce the toll of truck-involved deaths and injuries, it has abandoned 
the goal of lowering the number of deaths each year in favor of merely 
reducing the rate of deaths--an especially pernicious safety target 
that allows the number of people killed in large truck crashes to 
increase even as the rate could decrease. However, the agency has also 
been singularly unsuccessful at meeting its annual targets for even 
this revised goal. FMCSA's failure to act responsibly to improve safety 
is startling in light of the fact that it was established by Congress 
against a backdrop of chronically poor safety regulation and oversight 
by its predecessor agency. FMCSA was given a clear and strong 
legislative mandate that improving safety is the agency's primary 
mission.
    There has been no significant reduction in the mortality toll or 
progress in making trucking safer because of chronic inaction and 
ineffective leadership at the agency as well as successful efforts by 
the trucking industry to stymie and oppose programs, policies and 
regulations to promote the health and safety of truck drivers and the 
motoring public.
    Unfortunately, Ms. Ferro is an apologist for the failure of FMCSA 
to improve the safety record of motor carriers. For example, one of the 
most important and well-documented safety problems in the motor carrier 
industry is driver fatigue. According to the NTSB, truck driver fatigue 
is a factor in 30 to 40 percent of all truck crashes. Many other 
studies for over 30 years have shown the enormous contribution of 
fatigue and sleep deprivation among commercial drivers to fatal and 
injury crashes. Yet, FMCSA simply denies and rejects these research 
studies. The response of the Bush Administration to this critical 
safety problem was to issue an hours-of-service (HOS) rule that not 
only expanded the consecutive number of hours a truck driver can 
operate a fully-loaded rig from 10 to 11 straight hours, but also 
dramatically increased the total hours a truck driver can work to 88 
hours in a calendar week--an increase of 28 percent.
    The Bush Administration HOS rule permitting tired truckers to drive 
and work longer hours not only defies common sense and well-documented 
research and scientific data, but it was found to be profoundly lacking 
in legal legitimacy in two unanimous back-to-back decisions of the U.S. 
Court of Appeals for the District of Columbia which remanded the rule 
to the agency to be revised. In one case the court ruled that the FMCSA 
had ignored the impact of the longer hours on driver health as well as 
safety. While six (6) Federal appellate judges in two cases have found 
the Bush Administration HOS rule arbitrary and capricious, Ms. Ferro 
has vigorously defended the HOS rule, in concert with the American 
Trucking Associations, as a safe and wise policy. On January 10, 2009, 
Ms. Ferro co-wrote a letter defending the Bush Administration HOS rule 
in response to an editorial published in the Baltimore Sun criticizing 
the safety of the rule.
    In fact, she wrote, ``. . . reversing the 2004 change in the hours-
of-service regulations would be foolish, would make our highways less 
safe and would cost lives.'' Ms. Ferro's letter reflects a ``stay-the-
course'' attitude, and the mistaken view that the Bush Administration 
policies are working so well that no change is necessary. Ms. Ferro's 
views do not reflect the reform and change that are needed at FMCSA.
    We are extremely skeptical that an individual who has been employed 
by the very industry that has worked for years to thwart progress on 
critical truck safety issues will lead this agency to act in the 
interest of the public rather than the industry. In addition to the 
issue of truck driver fatigue and the hours-of-service rule, the FMCSA 
Administrator during the next 4 years will be involved in critical life 
and death decisions affecting motor carrier safety.
    Enforcing HOS Rules: Electronic on-board recorders (EOBRs) are 
electronic devices that record the time a truck engine is on and can 
provide a paper or electronic printout. This technology is essential to 
enforce the HOS rule for truckers and motorcoach drivers. Currently, 
drivers are required to keep paper logbooks that reflect their driving 
and work hours. Many drivers keep different sets of books, called 
``comic books,'' because the books kept to show to law enforcement are 
regularly falsified to reflect compliance with the HOS rule rather than 
record the actual number of working and driving hours. EOBRs are the 
only objective and direct way for law enforcement officers to determine 
whether a trucker or bus driver is in compliance with the HOS rule.
    Congress ordered DOT to deal with EOBRs in 1995 because many 
countries, including developing nations, required some type of EOBR-
technology. But, DOT and FMCSA did nothing and were criticized by the 
U.S. Court of Appeals in a 2004 decision for not having even evaluated 
the EOBRs then available. Since then, the FMCSA has proposed a rule 
that would require less than one half of 1 percent of truck companies 
to install EOBRs on their vehicles, and that would only be done as a 
punishment for those few companies with very poor safety compliance in 
general. While some large trucking companies currently use EOBRs, and 
applaud the safety and other benefits of having installed and used 
them, most of the trucking industry has opposed such a requirement even 
though it is widely supported by law enforcement. DOT and FMCSA 
constantly assert that technology should be used to improve safety and 
efficiency within the trucking industry, but in this case both the 
industry and the agency have refused to require EOBRs technology. The 
use of this technology is comparable to the use of breathalyzers to 
enforce drunk driving laws. It would greatly assist law enforcement and 
greatly improve compliance with HOS rules.
    Truck Size and Weight Limits: Establishing truck size and weight 
limits for the Federal Interstate highway system is controlled by 
Congress. However, for decades trucking interests have led the effort 
of ratcheting up truck sizes and weights in states and in Congress to 
increase the amount of freight that can be transported in each load. 
Once a few states increase weight limits, the pressure builds on 
neighboring states to do the same in order to stay competitive. 
Eventually Congress is called on to raise Federal weight limits for the 
sake of national uniformity. It was this divide-and-conquer approach 
that was successful in getting Congress, in 1982, to increase the 
weight limit for Interstate highway system to a total of 80,000 pounds, 
and force the states to accept these bigger, heavier trucks with 
longer, wider trailers on hundreds of thousands of miles of state 
highways as well as on the Interstate system.
    The industry approach of trying to get a few states to increase 
weight limits is well underway now and being carried out by industry 
lobbyists today in Maine and several other states. The trucking 
industry is pressing Congress and the states to allow trucks that weigh 
97,000 pounds or more, despite safety concerns about such large trucks 
and the destruction and delays caused when they crash or roll over. 
Bigger, heavier trucks have longer stopping distances, have a higher 
center of gravity and are more unstable, especially when operating at 
highway speeds, and thus more prone to be involved in a crash. Although 
large trucks represent only about three (3) percent of motor vehicle 
registrations, large trucks are involved in about eight (8) percent of 
all fatal motor vehicle crashes and 12 percent of all traffic 
fatalities annually. The special interest lobbying effort to increase 
the Federal truck weight limit is being pressed despite the fact that 
heavier trucks destroy and damage the highway and bridge infrastructure 
at astounding rates. There is currently a huge backlog of repairs 
needed for Interstate highways and bridges, and many Interstate bridges 
are structurally deficient or functionally obsolete. It costs tens of 
billions of dollars to restore these roads and bridges to a safe 
condition, enormous sums that most state DOT don't have. Nevertheless, 
the trucking industry is undaunted and unapologetic in its push for 
ever higher weights and larger trucks.
    Longer Combination Vehicles: Longer Combination Vehicles (LCVs), 
large doubles and triples, are truck tractors pulling multiple (2-
double, or 3-triple) trailers and can be over 100 feet in length. 
Doubles can be arranged in several different forms depending on whether 
28-foot, 48-foot or 53-foot trailers are combined, while triples are 
generally three 28-foot trailers pulled behind a truck tractor. LCVs 
are highly unstable in terms of lane control, slight steering changes 
often cause the last trailer to move into adjacent lanes of traffic, 
especially in crosswinds, and LCVs frequently encroach on other lanes 
of traffic when making turns. In 1991, Senator Frank Lautenberg (D-NJ) 
led a successful effort to ``freeze'' LCVs, allowing them to continue 
to operate where they had previously been operating, mostly in western 
states, but not allowing any expansion into new routes or states. The 
trucking industry has been relentless in pressing to repeal the LCV 
freeze and to expand the range of LCVs by forcing them onto new routes 
and into additional states. Safety groups are facing their biggest 
battle in Congress this year in stopping a repeal of the LCV freeze in 
order to allow double and triple-trailer trucks throughout the United 
States.
    In conclusion, the safety of all of our families, friends and 
colleagues are at stake. We can't afford to wait any longer for 
improvements in motor carrier safety and we can't afford to gamble on a 
former trucking executive making the right choices and the right 
decisions. FMCSA needs a leader and the public deserves an 
Administrator who is an avowed safety advocate without industry 
conflicts and will promote policies and programs that advance the 
health and safety of all motorists and not the economic interests of 
the industry. The American public expects nothing less.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                        to Cynthia L. Quarterman
    Question 1. In your current capacity, you have represented the 
industries that you are going to be expected to regulate in your role 
as Administrator. Will these experiences affect your ability to enforce 
the safety laws and regulations within the industries you have 
represented?
    Answer. Having directed a major Federal safety agency, I understand 
the need to maintain an arm's length relationship with the industries 
that one regulates. I am committed to the agency's safety mission and, 
if confirmed, I will use all of my experiences to ensure that the 
agency fulfills its duty to protect Americans from the risks inherent 
in transportation of hazardous materials. I will also maintain the 
transparency of the agency's actions, as well as the inclusiveness of 
its deliberative process.

    Question 2. How will you work to improve the culture of safety at 
Pipeline and Hazardous Materials Safety Administration (PHMSA)?
    Answer. If confirmed, I will make this my top priority. I have led 
a major Federal safety agency and I understand the critical role that 
the Pipeline and Hazardous Materials Safety Administration's people 
play in protecting the public and the environment as well as the people 
working on the critical infrastructure. My strong belief in this 
agency's safety mission will be communicated, through the timely 
implementation of the Action Plan that Secretary LaHood initiated and 
through a focus on all open NTSB recommendations.

    Question 3. PHMSA has already made progress toward informing trade 
associations that special permits were issued to member companies only, 
not to the association or organization. How will make sure member 
companies are aware of and compliant with the specifications of their 
permits?
    Answer. I understand that PHMSA issued an advisory clarifying that 
member companies are individually responsible for a special permit. 
Further, these companies are being contacted to ensure that they are 
aware of their requirements under the special permit. If confirmed, I 
will take a look at these and other efforts to make sure member 
companies are compliant with the specifications of their permits.

    Question 4. The Pipeline and Hazardous Materials Safety 
Administration is still a relatively young agency with several very 
important missions before it. If confirmed as the next Administrator, 
what will be your priorities for the agency and what are the main 
challenges to safety in the hazardous materials transportation and 
pipeline sectors?
    Answer. If confirmed, my top priorities will be to ensure that the 
Action Plan for the Hazardous Materials Special Permits program is 
implemented in an aggressive manner and I will take a look at the 
Pipeline Safety program to have a better understanding of the 
challenges it may be facing. Another priority will be the need to 
refocus the agency on its safety mission. I understand the critical 
role it plays in protecting the public and the environment, as well as 
the people working in pipeline and hazmat transportation.

    Question 5. PHMSA's mission includes coordinating the safe and 
secure transportation of hazardous materials across all modes of 
transportation. How will you work with DOT modal administrators to 
improve communication and coordinate efforts to ensure the safe 
transportation of hazardous materials?
    Answer. I understand that under the Action Plan, PHMSA, working 
with the modes, has developed a coordination policy. If confirmed, I 
will review this policy and make sure that it is effective.

    Question 6. Currently, PHMSA has 35 inspectors and seven field 
supervisors responsible for overseeing the 300,000 or more entities 
that transport hazardous materials. Do you believe PHMSA's staffing 
levels are adequate to enable PHMSA to perform its mission?
    Answer. I understand that the agency received additional inspectors 
in the FY 2009 budget. I also understand the agency/DOT has asked 
Congress for more inspectors in FY 2010. If confirmed, I will evaluate 
whether additional inspectors are required.

    Question 7. The Department of Transportation Inspector General has 
raised concerns about the special permitting and approval processes at 
PHMSA. PHMSA initiated an Action Plan, which is a good first step 
toward reforming the special permitting process. What will you do to 
ensure the action plan continues to be implemented and that changes 
required by the plan remain permanent?
    Answer. If confirmed, I will continue to work with the PHMSA staff 
to ensure that the deadlines set forth in the Action Plan are addressed 
in a timely manner. I will also take a closer look at the agency to see 
where additional reform is needed.

    Question 8. Ms. Quarterman, PHMSA currently regulates the safety of 
the Nation's small network of interstate carbon dioxide pipelines. As 
you know, being able to capture and sequester the emissions of coal is 
widely regarded as critical to reducing carbon dioxide emissions while 
allowing for the continued use of coal to meet our energy needs. If 
Congress passes legislation calling for greater reliance on carbon 
capture and sequestration technologies to help combat global climate 
change, do you believe that PHMSA's existing framework for the safety 
regulation of carbon dioxide pipelines is clear and workable in the 
face of a massive build out of new carbon dioxide pipelines?
    Answer. If confirmed, I will ensure that PHMSA continues to work 
with the Committee, its Federal and State partners, and the industry to 
prepare for the safe operation of new or extended carbon dioxide 
pipelines. It is my understanding that the existing pipeline safety 
program administered by PHMSA has provided effective oversight over 
thousands of miles of carbon dioxide pipelines since 1991 and will 
accommodate new and expanded carbon dioxide pipelines, however they are 
configured.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                         Cynthia L. Quarterman
    Question 1. Ms. Quarterman, pipelines are a key component of our 
Nation's transportation infrastructure. Many Americans are probably not 
aware that they live, work, or pursue recreational activities near 
pipelines. Ensuring their safety is an issue I take very seriously.
    In 2000, a quiet summer morning was shattered when a gas pipeline 
ruptured and burst into flames near Carlsbad, New Mexico. The fireball 
could be seen twenty miles away. Tragically, twelve people who were 
camping along the Pecos River died.
    This was the worst pipeline accident in the continental United 
States. I wish I could say that it was the last. Yet tragedy struck 
again since then. I am concerned that PHMSA still has not done enough 
to prevent further pipeline catastrophes. What are your priorities for 
PHMSA's work related to pipeline safety?
    Answer. First, strengthening and fortifying the rigor of PHMSA's 
pipeline safety inspection and enforcement program will be among my top 
priorities if I am confirmed. I know that much has been done since the 
tragedy at Carlsbad; however, safety requires constant vigilance and I 
commit to give that my highest attention. Second, providing adequate 
support--both financial and technical--for PHMSA's State partners will 
also be key to pipeline integrity. Last, I also believe that we must 
better use and develop technology that enables pipeline operators to 
more effectively and efficiently identify and eliminate threats. If 
confirmed, I would like to work with the Committee to establish a clear 
roadmap to bringing improved focus on technology's role in pipeline 
safety.

    Question 1a. What is your vision for an effective pipeline safety 
enforcement program?
    Answer. I believe that firm, but fair, enforcement is an essential 
element in a performance-oriented safety program. However, it alone 
will not provide the level of safety and environmental protection we 
demand. PHMSA must also have a clear and consistent regulatory program, 
rigorous oversight, technology development and deployment, and 
technical education and assistance--particularly for the thousands of 
small operators--to achieve the pipeline safety goals of the 
Department. Finally, PHMSA must engage those who also own a share of 
responsibility for pipeline safety--like land use planners, and the 
public, in ensuring the accuracy of our goals and support for our 
programs.

    Question 2. Ms. Quarterman, not far from the United State Senate, 
trains carry hazardous materials through the heart of Washington, D.C. 
In fact, all across the country, trucks and trains pass through 
communities carrying hazardous cargoes such as ammonia, chlorine, and 
highly flammable fuels.
    PHSMA has an important responsibility in ensuring the safe and 
secure shipment of these dangerous materials. What efforts should PHMSA 
undertake to improve safety and emergency preparedness? How can PHSMA 
better help local governments and communities with pipeline and 
hazardous materials safety and emergency preparedness? Are there any 
changes to current law you would recommend to strengthen the state and 
local government role in emergency preparedness?
    Answer. I understand PHMSA has a number of initiatives that address 
emergency preparedness, including a $28 million grant program to train 
emergency responders. Further, the agency works closely with the fire 
fighting community to develop ``best practices'' for responding to 
hazmat emergencies. It also works with stakeholder groups in their 
communities that have a role in emergency planning. I'm very supportive 
of these programs. If confirmed, I will meet with the agency's staff 
and congressional committees to determine how we might strengthen the 
state and local government's role in emergency preparedness.

    Question 3. You will be taking over the helm of an agency that 
needs to redouble efforts to earn the public's trust, particularly in 
communities that have been directly affected by pipeline incidents. 
What measures will you put in place to restore the public's trust in 
PHMSA and demonstrate to the public that PHMSA will act in the most 
professional and ethical manner under this Administration?
    Answer. I believe in this agency's safety mission and will ensure 
that the agency demonstrates its commitment to safety time and again. I 
will also encourage open communication and transparency within the 
agency.

    Question 4. President Obama has made government openness a priority 
for his administration. What will you do to improve openness and 
transparency at PHMSA? How can PHMSA expand public access to agency and 
pipeline information, rulemakings, and safety measures that affect 
their communities?
    Answer. If confirmed, this will be one of my top priorities; I'm 
committed to addressing the President's transparency initiative and 
will look for ways to further open communications with stakeholders 
through public meetings, PHMSA's website, and new information 
technologies.

    Question 5. The Department of Transportation's Inspector General 
recently found that PHMSA has not addressed longstanding safety issues 
raised by the National Transportation Safety Board (NTSB). The 
Inspector General office further called into question the effectiveness 
of PHMSA's process for approving special permits for shipping hazardous 
materials. Will you commit to this committee that, as PHMSA 
Administrator, you will address the concerns raised by the Inspector 
General and NTSB? When can this committee expect to see a PHMSA plan 
and timeline for addressing the specific recommendations of the 
Inspector General and NTSB?
    Answer. Absolutely. If confirmed, I will ensure that the Action 
Plan that Secretary LaHood initiated is implemented in a timely manner. 
I will also review and take action, where appropriate, on all open 
recommendations from the National Transportation Safety Board.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Kay Bailey Hutchison to 

                         Cynthia L. Quarterman
    Question 1. This Committee has long enjoyed a close and productive 
working relationship with the agencies within its jurisdiction. We rely 
on the legal and technical expertise of agency staff when developing or 
reviewing proposed legislation. Can all members of the Committee, and 
the staff on their behalf, count on this cooperative relationship 
continuing?
    Answer. Absolutely. If confirmed, I look forward to the continuing 
cooperative relationship.

    Question 2. Based on your experience in the field of 
transportation, what will your top priorities be at PHMSA?
    Answer. If confirmed, my top priorities will be to address concerns 
raised by the Congress and the DOT Inspector General regarding the 
Hazardous Materials program. I will also want to look at how the 
Pipeline Safety program is addressing the mandates of the Pipeline 
Inspection, Protection and Enforcement Act of 2006. Another priority 
will be to address the safety culture in the agency and take reform 
actions where necessary.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                         Cynthia L. Quarterman
    Question 1. What do you believe is the most important action 
Congress should take in our efforts to reauthorize the Pipeline and 
Hazardous Materials Safety Administration, which is expected to be 
addressed as part of the highway bill?
    Answer. The Obama Administration has not put forward a 
recommendation for reauthorization of the Hazardous Materials program 
as part of the Surface Transportation bill. If confirmed, I will work 
with department officials to address ways to strengthen the Hazardous 
Materials program. Key to strengthening the capability of the program 
is making sure that there are enough enforcement personnel; that data 
analysis needs are addressed along with improved Information Technology 
infrastructure; and that training is provided to emergency response 
personnel that respond to hazmat incidents.
    The Pipeline Safety program will be up for reauthorization in 2010. 
If confirmed, I will work with the Administration and the Congress on 
the reauthorization of this important safety program.

    Question 2. What do you consider to be the most pressing issue 
facing the agency today, and how do you hope to address that issue, if 
confirmed?
    Answer. The most pressing issue facing the agency is the need to 
refocus on its safety mission. If confirmed, I will make this my top 
priority--reestablishing a safety culture from the top to bottom. 
Having led a major Federal safety agency, I understand the critical 
role it plays in protecting the public and the environment, as well as 
the people working in pipeline and hazmat transportation.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Roger Wicker to 
                         Cynthia L. Quarterman
    Question 1. In 2002, Congress established an integrity management 
program for natural gas transmission pipelines, which in turn required 
that such pipelines undertake baseline inspections of their systems in 
populated areas, and then re-assess these segments every 7 years 
thereafter. A 2006 GAO report recommended that these reassessment 
intervals be based on the actual risk associated with a given pipeline 
segment, rather than a one-size-fits-all approach. Risk based 
allocation of resources was noted by the GAO as a superior method of 
focusing finite resources. Former PHMSA Administrator Admiral Thomas 
Barrett made the same recommendation to Congress several years ago. 
Will you maintain this recommendation to Congress as the next 
reauthorization of your pipeline authority commences?
    Answer. I believe the integrity of the Nation's energy 
transportation network to be one of my top priorities--and rigorous, 
risk-based testing is critical to pipeline safety. If confirmed and 
after getting briefed thoroughly on this issue, I would very much 
welcome the opportunity to advance the dialog begun by the GAO and 
Admiral Barrett. If confirmed, I will assure you that I will meet with 
the Committee to discuss this matter in detail.

    Question 2. The PHMSA programs and state grants are funded almost 
exclusively through user fees assessed on hazardous liquid pipelines, 
natural gas transmission pipelines, and liquefied natural gas 
facilities. As I understand it, PHMSA is required to allocate its costs 
across these pipeline sectors on an annual basis, and make adjustments 
in the user fees to fairly recover these costs. However, one sector of 
the industry, natural gas distribution, does not pay user fees to 
PHMSA. This is becoming important, since it appears that the PHMSA 
program and state grant monies are increasingly being used for 
important natural gas distribution safety efforts. During the debate on 
the Transportation and HUD Appropriations bill last week, several 
members of the Senate Appropriations Committee asked PHMSA to provide a 
breakdown of how program funds and state grant monies are allocated 
across the various pipeline sectors, ``in order to better assess the 
current program priorities at PHMSA, and to determine how these user 
fees are being allocated across the regulated community.'' Can you 
commit to providing this information on a timely basis to the Senate?
    Answer. If confirmed, I will provide this information promptly 
after assuming my duties. While it appears from my research to date 
that there is substantial support for the pipeline safety goals 
established for PHMSA under the PIPES Act, I understand that there are 
competing views on how the strategies to achieving these goals are to 
be funded. I do understand that PHMSA reported to the Congress on this 
general topic in 2008.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                             to Anne Ferro
    Question 1. In your current capacity, you have represented the 
industry that you are going to be expected to regulate in your role as 
Administrator. Will these experiences affect your ability to enforce 
the safety laws and regulations within the industry you have 
represented?
    Answer. As I said in my statement before the Committee, I am a 
public servant at heart with a passion for highway safety and a 
commitment to good government. I clearly demonstrated this during my 
time in Maryland's legislative branch and as Administrator of 
Maryland's Motor Vehicle Administration.
    I brought this same passion to my service as President of the 
Maryland Motor Truck Association where I followed the guiding 
principles of fairness, integrity, teamwork, respect for others, and 
hard work. My years representing the hardworking drivers of Maryland 
and the trucking companies that employ them will enable me to more 
effectively administer this Nation's motor carrier safety laws and 
regulations. I have seen first hand how low barriers to entry into the 
trucking industry and intense competition for freight encourage some in 
this industry to push the limits of safe operation and put the driving 
public and other commercial drivers at risk. I have observed the impact 
of uncompensated time, compensation by the mile or load, and how 
drivers may feel pressure to operate unsafely.
    If confirmed as Administrator of the Federal Motor Carrier Safety 
Administration, I would be committed to rolling out tougher safety 
standards for entry into the truck and motorcoach industries. I would 
be committed to considering a rule to require the universal use of 
electronic on board recorders and to address the issue of uncompensated 
time and compensation by the mile or load. I would be committed to 
implementing effective strategies for identifying and sanctioning high 
risk motor carriers.

    Question 2. How will you work to improve the culture of safety at 
the Federal Motor Carrier Safety Administration (FMCSA)?
    Answer. The culture of any organization starts with its leaders. My 
professional success along the way has rested on the guiding principles 
of fairness, integrity, teamwork, respect for others and hard work. I 
would bring these guiding principles with me to FMCSA if I am confirmed 
and expect the same from my managers and employees.
    If confirmed, I would focus on effective communication between 
leadership and the workforce including greater employee engagement and 
improved organizational practices that should result in a more 
satisfied, higher performing work force. I would also seek to improve 
leadership effectiveness through a number of initiatives including a 
comprehensive leadership development program.

    Question 3. Recently, there has been increased attention given to 
accidents caused by distracted drivers using electronic devices to send 
text messages. What steps would you implement at FMCSA to address this 
unsafe activity?
    Answer. The Department of Transportation is sponsoring a Distracted 
Driving Summit on September 30-October 1, 2009. It is my understanding 
that at this Summit, Secretary LaHood will be announcing a number of 
new initiatives to reduce driver distraction. As this issue relates to 
FMCSA, I understand that FMCSA is working on two studies to further 
evaluate issues related to driver distraction. The first study 
investigates distraction in commercial trucks and motorcoaches. This 
study will go further than any study previously undertaken as it will 
use a database of nearly 14 million driving events to study the 
prevalence of driver distraction in conjunction with crashes and near-
crashes. The second study focuses on safety practices relating to the 
use of cell phones and personal digital assistants (PDAs) in commercial 
truck and bus operations, including current practices to limit PDA use. 
It is my understanding that both of these studies will be completed in 
February 2010, and the report published subsequently. If confirmed, I 
would look forward to examining the results of these studies, using the 
data to support future Agency actions and rulemakings, and considering 
other steps to address accidents caused by drivers sending text 
messages.

    Question 4. FMCSA's historic lack of oversight and enforcement of 
the household goods industry has left many consumers unprotected from 
dishonest household goods movers. How would you make sure that FMCSA 
more aggressively protects consumers from unscrupulous household goods 
movers?
    Answer. As the former head of a state licensing agency, I 
understand the many challenges that a regulatory agency faces in 
dealing with individuals and companies that fail to comply with 
applicable rules.
    While FMCSA has made some progress in oversight of the household 
goods (HHG) industry, more needs to be done. If confirmed as 
Administrator, I would work to fully implement FMCSA's ``vetting'' 
process for new HHG carriers to prevent unscrupulous carriers from 
evading enforcement actions by re-establishing themselves under a new 
business name. I would also work to improve the Agency's HHG consumer 
complaint information so that consumers would have access to more 
information about complaints filed against HHG carriers. Finally, I 
would explore other regulatory and non-regulatory options to strengthen 
consumer protection.

    Question 5. The reauthorization of Federal surface transportation 
programs will provide us an opportunity to implement reforms to the 
FMCSA to reduce the number of crashes, injuries, and fatalities 
occurring on our Nation's highways. Are you committed to working with 
the Commerce Committee to meet these goals? What do you believe 
Congress should consider as it works to reauthorize the FMCSA?
    Answer. In 2008, FMCSA reached out to stakeholders such as safety 
advocacy groups and labor, state enforcement agencies, the motorcoach 
industry, and the trucking industry to identify areas where the 
stakeholders believe the Agency should consider seeking additional 
authority from Congress. The Agency also requested input from its Motor 
Carrier Safety Advisory Committee, a 15-member committee established in 
2007 with individuals from safety advocacy groups, law enforcement, and 
industry and labor, to provide the Agency with their views on 
reauthorization.
    Based on what I have heard from other stakeholders in my capacity 
as President of the Maryland Motor Truck Association, some of the major 
topics identified for reauthorization through this collaborative 
process are:

  <bullet> Strengthening FMCSA's enforcement authority;

  <bullet> Reforming the Agency's grant programs to the states to 
        provide increased flexibility;

  <bullet> Implementing on a nation-wide basis safety programs such as 
        Performance and Registration Information Systems Management 
        (PRISM), Commercial Vehicle Information Systems and Networks 
        (CVISN), and Ticketing Aggressive Cars and Trucks (TACT).

    If confirmed, I look forward to working with the Committee and 
other stakeholders on reauthorization legislation that will lead to 
significant improvements in truck and bus safety.

    Question 6. Ms. Ferro, in January 2009 you co-signed a letter to 
The Baltimore Sun supporting a controversial Bush Administration Hours 
of Service rule for commercial motor vehicle operators. In the letter, 
you stated that the Bush rule would have made trucking safer and that 
``. . . reversing the 2004 change in the hours-of-service regulations 
would be foolish, [and] would make our highways less safe and would 
cost lives.'' As you know, the Bush Hours of Service rules have twice 
been overturned by the U.S. Court of Appeals. Please explain to me why 
you wrote in support of this rule. If confirmed, will you re-visit the 
Hours of Service rules to ensure that truck drivers are able to receive 
sufficient rest in order to allow them to operate safely?
    Answer. The primary purpose of my letter to The Baltimore Sun was 
to point out that its editorial presented only one side of a very 
complex issue. The hours-of-service changes put in place by FMCSA did 
more than just allow an extra hour of driving. They also required two 
additional hours of rest and forced truckers to stop driving 14 hours 
after coming on duty, thus helping to maintain drivers' circadian 
rhythm. I believed the rule needed to be viewed as a whole.
    Having said that, I am deeply committed to safety. It has been my 
primary goal throughout my career and, if I am confirmed, it will be my 
mission at FMCSA. Too many people are injured or die in truck and bus 
crashes. In making decisions regarding hours-of-service rules or any 
other topic, safety will be my guide. One of my top priorities would be 
to improve the hours-of-service rules, starting with stakeholder input, 
sound analysis, and use of the best available research and data. 
Fatigue has a profound impact on commercial vehicle operators in every 
mode of transportation; I would pursue strategies to identify the 
sources, remediate and reduce the incidence of fatigue in motor carrier 
operations. I will go where the evidence leads me in improving this 
rule.

    Question 7. Ms. Ferro, the DOT Inspector General, NTSB, and the GAO 
have recommended that the FMCSA address many issues under its 
jurisdiction, including its CDL program, driver drug testing, and 
driver hours of service. How would you prioritize implementing these 
changes at FMCSA?
    Answer. I take the recommendations of these audit agencies 
extremely seriously and value their perspective. I am aware that FMCSA 
develops and implements detailed action plans for all accepted 
recommendations. I have been told that the three important programs you 
cited have been prioritized by FMCSA, and I can assure you that they 
will remain priorities if I am confirmed.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
             on Behalf of Hon. Sherrod Brown to Anne Ferro
    Question 1. The pending Motorcoach Enhanced Safety Act, S. 554 and 
H.R. 1396, propose comprehensive improvements in motorcoach safety. The 
Federal Motor Carrier Safety Administration (FMCSA) would have 
jurisdiction over a number of the provisions that address motorcoach 
operations. At a hearing last September 18, 2008, before the Senate 
Subcommittee on Surface Transportation and Merchant Marine 
Infrastructure, Safety, and Security of the Committee on Commerce, 
Science and Transportation, witnesses representing the National 
Transportation Safety Board (NTSB), the National Highway Traffic Safety 
Administration (NHTSA) and FMCSA stated that they have no objections to 
the provisions in the MESA bill. Do you agree with their views?
    Answer. As stated at that hearing, FMCSA supports many of the 
provisions of the bill. It is my understanding that the FMCSA staff has 
been working with your staff to provide specific information when 
requested. If confirmed, I will continue this support.

    Question 2. In TEA-21, Congress extended FMCSA's jurisdiction over 
interstate motor carriers of passengers to cover small commercial 
vehicles carrying between 9 and 15 people, including a driver, for 
compensation. However, FMCSA does not appear to have taken vigorous 
steps to identify these carriers, require them to register with the 
agency and get operating authority, and oversee their compliance with 
the Federal Motor Carrier Safety Regulations. What will you do to 
correct this failure if you are confirmed as FMCSA Administrator?
    Answer. If I am confirmed, I will work to ensure this regulation is 
completed as expeditiously as possible. I am aware the FMCSA is working 
to fulfill the TEA-21 and SAFETEA-LU requirements for 9-15 passenger 
carriers and that a Final Rule is currently in development and is on 
track to be published in 2010. After publication, FMCSA will work with 
its safety partners to implement the new regulatory requirements.

    Question 3. The Volpe National Transportation Center released a 
study a few months ago showing that motorcoach fires are an epidemic 
that have gone on for years. Everyday some news media outlet somewhere 
in the U.S. reports a motorcoach fire. What would you do if confirmed 
as Administrator to reduce the frequency and severity of these 
dangerous fires? Can you take steps to improve motorcoach fire safety 
right away, in advance of any new safety regulations issued by NHTSA?
    Answer. I share your concerns about the need to reduce the 
incidence of motorcoach fires. While the number of motorcoach fires 
that result in fatalities is limited based on the Volpe study, the 
potential for a loss of life is significant, as we saw from the tragic 
Wilmer, TX motorcoach fire in 2005.
    If confirmed as Administrator, I will explore options for working 
with safety advocacy groups, organized labor, state enforcement 
agencies, and the motorcoach industry to identify actions that can be 
taken to enhance motorcoach inspection, repair, and maintenance 
programs so that mechanical conditions and vehicle components 
associated with fire risks have the attention they deserve in fleet 
maintenance programs and safety inspections.
    I will also work with the appropriate executives in NHTSA in the 
implementation of the Department's forthcoming Motorcoach Safety Plan 
announced by the Secretary earlier this year.

    Question 4. Would you be willing to mandate an important safety 
technology for motor carriers, including motorcoaches, even without a 
safety standard already adopted by NHTSA?
    Answer. If confirmed, I am committed to working with the technical, 
legal and policy experts within FMCSA, NHTSA, and the Office of the 
Secretary to explore regulatory options for mandating important safety 
technology. I would work with the appropriate senior staff within the 
Department to explore these issues as they come up.

    Question 5. If you are confirmed as FMCSA Administrator, what will 
you do to accelerate FMCSA's action on the numerous recommendations 
made by the agency's Medical Review Board to amend the current 
commercial driver physical qualifications?
    Answer. I am familiar with the work of FMCSA's Medical Review Board 
and the recommendations that the Board has provided to FMCSA. Based on 
comments that the Agency's staff has made in public forums, I believe 
work is underway on several medical rulemakings based on the MRB's 
recommendations. It is my understanding the Agency is currently working 
on rulemakings concerning the vision standard, criteria for drivers 
with diabetes, the cardiovascular standard, and pulmonary conditions 
(including sleep apnea).
    If confirmed, I will work with FMCSA's senior executives in 
reviewing the Agency's regulatory priorities to ensure that the 
medical-related rulemakings progress in a more timely manner.

    Question 6. Despite Congress enacting a provision more than 4 years 
ago requiring FMCSA to establish a national medical registry and set 
requirements for admitting health care providers to the list of 
providers qualified to conduct commercial driver physical examinations, 
no Registry has been adopted and no rulemaking proposals have been 
issue on what the criteria should be for admittance to the Registry. If 
confirmed as Administrator, how quickly can you act to conduct 
rulemaking and get the Registry underway?
    Answer. The FMCSA published the notice of proposed rulemaking to 
establish the National Registry of Certified Medical Examiners on 
December 1, 2008. The proposal requested public comments from all 
interested parties on requirements for including medical examiners on 
the national registry, including training and testing provisions.
    If confirmed as Administrator, I will work with FMCSA's senior 
executives to review the Agency's regulatory agenda, to ensure the 
completion of the publication of the final rule in 2010.

    Question 7. The final rule issued by FMCSA several months ago 
merging the CDL with the medical certificate still has cardinal 
weaknesses, which have been pointed out to FMCSA in docket comments 
filed by health providers, state licensing agencies and commercial 
motor vehicle safety organizations. Are you planning to correct these 
mistakes and strengthen the rule if you are confirmed as Administrator?
    Answer. As the former head of a state licensing agency, and head of 
a state trucking association, I acknowledge the complexities of FMCSA's 
rulemaking to merge the medical certification process with the 
commercial driver's license (CDL) issuance and renewal process. I 
believe the rulemaking represents a major step forward in terms of 
requiring the state licensing agencies to put into place the 
information technology (IT) systems to capture electronically drivers' 
medical certificates and to automatically downgrade the CDL after a 
driver's medical certificate expires.
    FMCSA's December 1, 2008, rule does not prevent the Agency from 
considering a future notice-and-comment rulemaking on this topic. 
Therefore, I look forward to working with the states, the medical 
examiner community and other important stakeholders to explore this 
regulatory option and to address any other concerns about the December 
1, 2008, final rule.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                               Anne Ferro
    Question 1. Ms. Ferro, what was the experience of the Maryland 
Department of Transportation and Maryland truckers with the deployment 
of the FMSCA's Commercial Vehicle Information Systems and Networks 
(CVISN)? Based on that experience, are there specific things you 
believe you can apply to the national core (and expanded) deployment of 
CVISN--whose progress to date has been uneven at best?
    Answer. Maryland was one of the first States to begin deploying 
FMCSA's Commercial Vehicle Information Systems and Networks (CVISN) and 
had the first Commercial Vehicle Information Exchange Window, a core 
CVISN requirement. Under the CVISN Program, Maryland led the country in 
development of an electronic credentialing system for the International 
Registration Plan. It is now one of 23 States that FMCSA has certified 
as compliant with core CVISN. Maryland has recently made use of 
Expanded CVISN funds to implement virtual weigh station projects. The 
Maryland CVISN stakeholders group includes the Maryland Motor Truck 
Association as well as the Maryland Motorcoach Association, and 
Independent Truckers and Drivers Association.
    I know one reason for uneven CVISN deployment is that States differ 
in their ability to devote their own funds to match the Federal funds 
required by statute. The 50:50 match requirement is the most stringent 
match requirement among FMCSA's grant programs, and many States 
struggle to meet that funding requirement.
    Question 2. Ms. Ferro, as you know, the National Transportation 
Safety Board (NTSB) continues to recommend that Electronic On-Board 
Data Recorders (EOBRs) be installed by all interstate commercial 
vehicles to maintain accurate carrier records on driver hours of 
service and accident conditions. In its notice of proposed rulemaking 
(NPRM) issued in January 2007, my understanding is that FMSCA was 
looking at EOBRs only for those carriers that have demonstrated a 
history of serious noncompliance. To date, no final rule has been 
issued. If confirmed, do you intend to issue a final rule on the 
January 2007 NPRM? If confirmed, would you consider revising the 
January 2007 NPRM to cover all interstate commercial vehicles? What 
data, information, or research do you need to help you make the 
decision on whether to expand the January 2007 NPRM to cover all 
interstate commercial vehicles?
    Answer. I share your concerns that FMCSA's January 2007 NPRM 
focused on only a very small percentage of interstate motor carriers. 
Given the frequency with which State enforcement personnel cite truck 
drivers for violations of the hours-of-service regulations during 
roadside inspections, the Agency should consider additional actions to 
bring about increased compliance with the safety regulations.
    If confirmed, I will work with the senior executives in FMCSA and 
the Secretary to consider a new rulemaking to expand the EOBR mandate 
to a much larger population than the Agency proposed in 2007. I would 
work with the appropriate legal and economic experts to identify the 
data necessary to support each of the regulatory options, including a 
regulatory option for a universal mandate for interstate carriers to 
install EOBRs on all their vehicles.
    Question 3. Ms. Ferro, I have a series of questions related to the 
implementation of NAFTA's trucking provisions. Do you believe that the 
safety of Mexican trucks has improved over the past decade?
    Answer. Yes. In the last decade there has been a significant 
improvement in the safety of Mexican commercial motor vehicles and 
drivers entering the United States. This is reflected in the lower out-
of-service rates, increased number of inspections being performed, and 
the enhanced safety procedures implemented by Mexico and the United 
States. The FMCSA, working with its State partners, has dedicated 
increasing resources over that time and seen commensurate improvements 
in Mexican commercial motor vehicle safety performance.
    Question 3a. Do you believe that truck out-of-service rates are 
good indicators of safety?
    Answer. Truck out-of-services rates are one of many different 
indicators that are useful in evaluating a motor carrier's safety 
performance. A comprehensive methodology, such as Comprehensive Safety 
Analysis (CSA) 2010, that utilizes driver, vehicle and motor carrier 
behaviors to arrive at a safety fitness determination is equally 
useful. Additionally, a motor carrier's safety management controls and 
programs, such as hour-of-service and controlled substance monitoring 
programs, are important indicators of a motor carrier's safety 
condition and ability to ensure continued safety improvements.
    Question 3b. Based on the data collected from the year long U.S.-
Mexican cross border trucking pilot, such as data on truck out-of-
service rates, do Mexican trucks operating in the U.S. have a 
comparable safety record to U.S. trucks?
    Answer. One critical measure of safety is out-of-service rates. 
During the United States-Mexico Cross Border Demonstration Project 
(from 9/06/2007 to 03/11/2009), every participating long haul vehicle 
was checked for a current Commercial Vehicle Safety Alliance inspection 
sticker indicating that the required inspection on the vehicle was 
valid before it crossed into the United States. The driver and vehicle 
out-of-service (OOS) rates were lower for Mexico-domiciled carriers 
than national averages for U.S.-domiciled carriers during the same 
period:


----------------------------------------------------------------------------------------------------------------
                                             Mexico-domiciled carriers                   U.S. Average
----------------------------------------------------------------------------------------------------------------
Driver OOS                                                            0.4%                                 6.7%
Vehicle OOS                                                           7.8%                                22.4%
----------------------------------------------------------------------------------------------------------------


    Question 3c. Should Mexican trucks and drivers providing long-haul 
cross border service in the U.S. be held to identical standards as U.S. 
domiciled motor carriers and drivers operating in the U.S.?
    Answer. If any such program is implemented in the future, Mexican 
carriers operating in the United States should meet the same level of 
safety standards as U.S. carriers. All Mexican drivers should meet the 
same level of driver qualifications and licensing standards as U.S. 
drivers. All Mexican vehicles should meet the same level of safety 
requirements as U.S. vehicles.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                               Anne Ferro
    Question 1. Ms. Ferro, you are well aware of the criticism 
surrounding your nomination to lead FMCSA. I am aware of concerns, for 
example, about your commitment to safety given some of the positions 
you supported as president of the Maryland Motor Truck Association. As 
Administrator, you would lead an organization with the primary mission 
of reducing crashes, injuries, and fatalities involving large trucks 
and buses. Can you assure this committee that, if confirmed, you will 
make safety the highest priority at FMCSA? Does your past opposition to 
stricter safety regulations for commercial vehicles reflect how you 
would lead FMCSA?
    Answer. I am deeply committed to safety. It has been my primary 
goal throughout my career and, if I am confirmed, it will be my mission 
at FMCSA. My principal objective would be to reduce the number of 
people injured or killed in truck and bus crashes and to pursue 
enforcement strategies that get unsafe carriers and drivers off the 
road.
    I have never been opposed to stricter safety regulations for 
commercial vehicles. I believe that FMCSA should consider a broader 
mandate for use of electronic on-board recorders (EOBRs) in commercial 
vehicles. If confirmed as Administrator, one of my top priorities would 
be to improve the hours-of-service rules, starting with stakeholder 
input, sound analysis, and use of the best available research and data. 
Fatigue has a profound impact on commercial vehicle operators in every 
mode of transportation; I would pursue strategies to identify the 
sources and remediate and reduce the incidence of fatigue in motor 
carrier operations. I will go where the evidence leads me.

    Question 2. Ms. Ferro, FMCSA has the important task of helping 
ensure the safety of commercial vehicles on our Nation's roadways. This 
involves not just the safety of the vehicle itself, but also the human 
operator.
    I believe stricter hours of service rules were a step in the right 
direction. I would appreciate your thoughts on what more FMCSA can do 
to improve safety. Under your leadership, how will FMCSA work to 
prevent crashes involving commercial vehicles? How will FMCSA address 
safety risks related to vehicle operators? Under your leadership, how 
will FMCSA work to prevent crashes involving commercial vehicles?
    Answer. If confirmed, I will prioritize the Agency's programs that 
will have the most significant impact on reducing crashes. FMCSA's 
Comprehensive Safety Analysis 2010 program will incorporate roadside 
inspection and crash data and evaluate motor carriers against new 
thresholds. With the intervention techniques, FMCSA expects to make 
significantly more contact with carriers annually.
    If confirmed, I will also ensure that the Agency completes its 
implementation of the New Entrant Safety Assurance Process, which 
applies a higher standard than ever before to new companies entering 
the industry. The Agency is also expanding its vetting process to 
identify carriers that are reestablishing themselves rather than 
correcting safety deficiencies or paying fines.
    In addition, if confirmed, I will also work closely with our safety 
partners through grants and other initiatives to continue roadside 
inspections, compliance reviews and investigations.

    Question 3. How will FMCSA address safety risks related to vehicle 
operators?
    Answer. As for operators, it's all about the driver--that person's 
health, qualifications, and work pressures. It also involves the 
employer's commitment to provide safe equipment and a safe operating 
environment at all times. It is my understanding that the Agency is 
completing several rules that will directly impact drivers. These 
address minimum training requirements for entry level driver training; 
CDL testing and learner's permit requirements; ensuring medical 
examiners are qualified to examine drivers; and the establishment of a 
drug and alcohol positives database and requiring motor carriers to 
check this before hiring.
    The prioritization of the Agency's CSA 2010 program will result in 
more motor carriers receiving contacts by FMCSA and our partners. In 
addition, the Agency is developing a new Safety Fitness Determination 
rulemaking that will change how carriers are rated and will make 
carriers more accountable for their safety history and practices. If 
confirmed, I will be committed to ensuring all these programs stay on 
track and reap safety benefits for the American people.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Warner to 
                               Anne Ferro
    Question 1. With the long and congested stretches of Interstates 95 
and 81 that traverse the state of Virginia, safety conditions for the 
trucks traveling our roads are of great importance to my constituents. 
Some stretches of I-81 in particular have as many trucks on the road as 
cars and, as a result, the likelihood that an accident will result in 
fatalities is nearly twice as great on I-81 as it is on I-95. You have 
in the past offered your support for 2004 rules governing hours of 
service (HOS) requirements. The Federal Court of Appeals, however, has 
twice remanded the Hours-Of-Service rule back to the FMCSA with 
questions about the reasoning and logic behind them. No major changes 
have been made. What changes do you think need to be made to current 
HOS rules? If confirmed, would you open a new rulemaking proceeding to 
change the HOS rule?
    Answer. I am deeply committed to safety. It has been my primary 
goal throughout my career and, if I am confirmed, it will be my mission 
at FMCSA. My principal objective would be to reduce the number of 
people injured or killed in truck and bus crashes and to pursue 
enforcement strategies that get unsafe carriers and drivers off the 
road.
    One of my top priorities at FMCSA would be to improve the hours-of-
service rules, starting with stakeholder input, sound analysis, and use 
of the best available research and data. I believe that electronic on-
board recorders (EOBRs) could improve the safety of the commercial 
vehicle industry, while also improving its efficiency. Fatigue has a 
profound impact on commercial vehicle operators in every mode of 
transportation. I would pursue strategies to identify the sources and 
remediate and reduce the incidence of fatigue in motor carrier 
operations. I will go where the evidence leads me.

    Question 2. If confirmed, what position will you take on efforts to 
increase current limits on truck weight and size? Do you support 
increasing the truck weight limit on Interstates to 97,000 pounds?
    Answer. FMCSA has no direct role in the regulation of vehicle size 
and weight. If confirmed, however, I would ensure that any discussions 
concerning size and weight policy include a thorough analysis of the 
safety impact on the Nation's highways.

    Question 3. In 1999, the Secretary of Transportation set an FMCSA 
goal to reduce large truck crash fatalities by 50 percent in 10 years, 
by 2008. That goal was never met. What performance goal does Ms. Ferro 
think FMCSA can achieve, and to what specific actions will she take to 
substantially reduce annual deaths and injuries in order to meet her 
goal?
    Answer. If confirmed as Administrator, I will work with the 
Secretary, the Federal Highway Administrator, and the National Highway 
Traffic Safety Administrator to reconsider the highway safety goal in 
general, and to consider a more aggressive truck and bus safety goal. 
While truck and bus safety has improved since the Agency was 
established, I believe there is more than can be done.

    Question 4. Finally, violations of hours of service requirements 
among truck drivers are a common problem and we now have the 
technology, through the use of electronic on-board recorders (EOBRs), 
to address this safety hazard. How will you implement the increased use 
of EOBRs? Do you believe these should be mandated?
    Answer. I share your concerns about hours of service violations 
among truck drivers. I am familiar with FMCSA's EOBR proposed 
rulemaking which focused on only a very small percentage of interstate 
motor carriers. Given the frequency with which state enforcement 
personnel cite truck drivers for violations of the hours-of-service 
regulations during roadside inspections, I firmly believe the Agency 
should consider additional actions to bring about increased compliance 
with the safety regulations.
    If confirmed, I will work with the senior executives in FMCSA and 
the Office of the Secretary to consider a new rulemaking to expand the 
EOBR mandate to a much larger population than the Agency proposed in 
2007. I would work with the appropriate legal and economic experts to 
identify the data necessary to support any regulatory options 
identified for a rulemaking, including a regulatory option for a 
universal mandate for interstate carriers to install EOBRs on all their 
vehicles.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Kay Bailey Hutchison to 

                               Anne Ferro
    Question 1. This Committee has long enjoyed a close and productive 
working relationship with the agencies within its jurisdiction. We rely 
on the legal and technical expertise of agency staff when developing or 
reviewing proposed legislation. Can all members of the Committee, and 
the staff on their behalf, count on this cooperative relationship 
continuing?
    Answer. Yes, I look forward to working with the all Members of the 
Committee on any legislation impacting motor carrier safety.

    Question 2. One of the most controversial issues faced by FMCSA in 
recent years has been the hours-of-service provisions for commercial 
motor vehicle drivers. The Agency's rules have been overturned in 
Federal court multiple times, and the current rule is also under legal 
challenge. What can FMCSA do to develop a rule that will not be 
overturned by the courts?
    Answer. With the new Administration in place, FMCSA has an 
opportunity to take a fresh look at the research and data that led to 
the current hours-of-service (HOS) rule. Since the current rule is now 
5 years old, the Agency is in a position to examine what effect the 
current rule has had on overall safety, driver health and wellness, and 
crash involvement. The outcome of this examination should, of course, 
lead to improvements that continue to place the health and welfare of 
the driver and general safety concerns as our foremost objectives.

    Question 3. Most oversight and licensing of commercial drivers is 
done at the state level, and there are some inadequacies with the 
current oversight framework. What can FMCSA do to improve communication 
between states and improve medical oversight of drivers?
    Answer. Every state (and the District of Columbia) manages its own 
CDL licensing processes individually. They are connected by way of the 
Commercial Driver's License Information System (CDLIS). Congress has 
mandated an upgrade in both the system itself as well as improvements 
in the consistency and accuracy of information exchanged among the 
jurisdictions. This modernization process is underway and I will ensure 
it is implemented as quickly as possible if I am confirmed.
    With my experience as Maryland's Motor Vehicle Administrator, I 
will personally reach out to the enforcement and motor vehicle agency 
leadership in state agencies and their national association AAMVA to 
elevate the importance of motor carrier safety to achieving their 
safety missions.
    In addition, if confirmed, I will ensure that FMCSA continues to 
conduct regular compliance reviews of each state to assure they are 
adhering to the regulations and to direct our field staff to work with 
the states to assure the required improvements are made. I will also 
direct FMCSA staff to provide regular opportunities for the states to 
discuss common issues and problems through our coordinator meetings, 
regularly scheduled conference calls, and bulletin updates.

    Question 4. On April 30, Secretary LaHood ordered a departmental 
review of commercial bus safety, in response to a string of fatal bus 
accidents across the country in the past few years that was expected to 
be completed in August. What is the status of that review?
    Answer. It is my understanding that immediately upon receiving the 
order from Secretary LaHood, the FMCSA began working with its sister 
agencies to develop the Motorcoach Safety Action Plan. The draft Plan 
was delivered to the Secretary in July. Secretary LaHood then requested 
that additional stakeholder meetings take place to ensure that the 
final Plan is comprehensive and that it fully addresses motorcoach 
safety concerns. The first stakeholder meeting took place on September 
15. I have been told that additional meetings with the NTSB and others 
are being scheduled. At the conclusion of these meetings, any needed 
revisions to the Plan will be made and the Secretary will issue the 
final Plan.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                               Anne Ferro
    Question 1. South Dakota, like our neighboring states, plays a 
vital part in the national transportation system. Our highways serve as 
connectors for traffic and commerce that benefit citizens from other 
states. In fact, more than two thirds of the truck traffic on highways 
in South Dakota neither begins nor terminates in the state. What do you 
believe is the most important action Congress could take to improve 
truck and bus safety in rural America?
    Answer. The rural road fatality rate is more than twice as high as 
the urban road fatality rate, and more than 55 percent of highway 
fatalities occur on rural roads. The Federal Motor Carrier Safety 
Administration has implemented several programs to improve commercial 
motor vehicle (CMV) safety on rural roads. Specifically, rural road CMV 
safety is currently an emphasis area for the FMCSA's Motor Carrier 
Safety Assistance Program (MCSAP), and in Fiscal Year 2009, FMSCA 
awarded $2 million in High Priority discretionary grant funds to six 
states to conduct high-visibility CMV traffic enforcement initiatives 
in high-crash corridors along rural roads. Also, it is my understanding 
that FMCSA has encouraged its MCSAP State partners to incorporate a 
range of rural road CMV safety initiatives into their core MCSAP 
programs. Additionally, FMCSA has established a Rural Road CMV Safety 
Workgroup, comprised of national and state law enforcement and highway 
safety officials. This Workgroup develops training videos and other 
outreach materials to promote the importance of rural road CMV traffic 
enforcement to those state and local law enforcement agencies not 
accustomed to stopping large trucks as part of their traffic 
enforcement efforts.
    If confirmed, I will ensure that FMCSA focuses on additional 
actions that would further improve CMV safety on rural highways.

    Question 2. What are your views on how to best ensure that the 
transportation needs of rural America are not overlooked at the 
Department of Transportation--specifically the Federal Motor Carrier 
Safety Administration--as it develops policy proposals?
    Answer. I believe that the Department of Transportation is already 
focused on the importance of rural community transportation needs to 
the Nation. Specifically, in addition to those commercial motor vehicle 
(CMV) safety efforts undertaken by FMCSA within its MCSAP grants 
program (described above), FMCSA staff also currently participates in 
the Department's Livability--Rural Focus Group Initiative, a multi-
modal working group established by the Office of the Secretary of 
Transportation to identify current challenges faced by rural 
communities in the areas of transportation access/connectivity and 
safety, and to identify new programs and initiatives that would further 
improve access and safety in rural communities. If confirmed, I look 
forward to working on these and other efforts and I can assure you that 
FMCSA will not overlook the transportation needs of rural America.

    Question 3. What do you believe is the most important action 
Congress should take in our efforts to reauthorize FMCSA as part of the 
highway bill?
    Answer. I fully support the Administration's efforts to work with 
Congress on developing a comprehensive reauthorization bill that 
includes key reforms, including safety improvements. I believe that an 
extension of SAFETEA-LU that lays the groundwork for this reform would 
provide a good opportunity for the new Administration to reach out to 
stakeholders such as safety advocacy groups, organized labor, state 
agencies, and the truck and bus industries to provide input on the 
contents of a reauthorization bill.
    If confirmed, I look forward to working with the Committee to meet 
the safety goals of FMCSA through the reauthorization process.

    Question 4. What do you consider to be the most pressing issue 
facing the agency today, and how do you hope to address that issue, if 
confirmed?
    Answer. I consider the most pressing policy issues for the new 
Administrator to be:

  <bullet> Pursuing strategies to remediate and reduce the incidence of 
        fatigue on motor carrier operations.

  <bullet> Improving the Hours of Service Rule; and

  <bullet> Considering a strengthened mandate for using electronic on 
        board recorders.

    Additionally, among my most pressing issues if confirmed would be 
to implement organizational strategies that enable the Agency's 
managers and employees to focus on our core safety mission. As the 
former head of a state licensing agency, I believe strong enforcement 
is an important part of the Agency's current approach to improving 
safety. I would continue the Agency's efforts to implement an enhanced 
high-risk carrier identification and intervention program through the 
Comprehensive Safety Analysis 2010 initiative.
    FMCSA also needs to place a greater emphasis on working with safety 
advocacy groups, state enforcement agencies, and the industry to 
achieve improved levels of compliance with important safety 
regulations. FMCSA must encourage motor carriers to adopt, on a 
voluntary basis, best safety practices, such as those recommended by 
FMCSA's Motor Carrier Safety Advisory Committee.

    Question 5. In addition to truck and bus safety, FMCSA is 
responsible for safeguarding consumers when they are using interstate 
household goods carriers. Household goods shipments are unique in that 
families entrust their entire household and most cherished possessions 
to a motor carrier. The existing FMCSA regulatory scheme is intended to 
provide consumers protection from incompetent or unscrupulous movers.
    Unfortunately, unscrupulous ``rogue'' movers remain a problem. This 
is particularly troublesome for legitimate small moving companies 
struggling to survive during the current housing crisis and weak 
economy. Would you support strengthening entry requirements to keep 
unqualified movers off the road? Would you support committing 
additional resources for an enhanced FMCSA enforcement program that 
better protects consumers? How can we improve consumer education to 
better help them protect themselves from rogue movers?
    Answer. The new entrant requirements that take effect in December 
this year will help ensure that new carriers are knowledgeable of the 
regulations and compliant with them or face penalties including having 
their DOT registration revoked.
    Balancing the safety mission of the Agency with the responsibility 
of regulating household goods (HHG) carriers will be one of the 
challenges I will face as Administrator if confirmed. If confirmed, I 
will work to ensure staff assigned to HHG oversight focus on where the 
consumer complaints are most prevalent. I would prioritize FMCSA's 
compliance and enforcement efforts on rogue HHG carriers who hold 
consumers goods hostage. Finally, I would strengthen the relationship 
with the Office of Inspector General (OIG) and seek its assistance in 
carrying out the provisions of SAFETEA-LU, where it gives the OIG 
statutory authority to seek criminal penalties against HHG carriers who 
hold goods hostage.
    If confirmed, I would want to improve FMCSA's outreach efforts with 
consumers by working closer with the states, consumer entities, and the 
HHG industry. Currently states have the authority to enforce 
regulations against interstate HHG movers in Federal court. For various 
reasons they choose not to. FMCSA needs to work closer with them so 
that they enforce these regulations. Consumer entities such as the 
Better Business Bureau receive thousands of HHG complaints each year. 
In addition, the American Moving and Storage Association has programs 
(arbitration and hostage goods recovery) that assist consumers.

                                  <all>

</pre></body></html>
